<html>
<title> - THE DEPARTMENT OF TRANSPORTATION'S FISCAL YEAR 2011 BUDGET</title>
<body><pre>[Senate Hearing 111-606]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-606

                  THE DEPARTMENT OF TRANSPORTATION'S 
                        FISCAL YEAR 2011 BUDGET

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
57-892 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2010....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Begich......................................     4
Statement of Senator Thune.......................................    15

                               Witnesses

Hon. John D. Porcari, Deputy Secretary, U.S. Department of 
  Transportation.................................................     5
    Prepared statement...........................................     6

                                Appendix

Response to written questions submitted to Hon. John D. Porcari 
  by:
    Hon. John D. Rockefeller IV..................................    25
    Hon. Bill Nelson.............................................    28
    Hon. Tom Udall...............................................    29
    Hon. Frank R. Lautenberg.....................................    31
    Hon. Mark Begich.............................................    32
    Hon. Kay Bailey Hutchison....................................    32
    Hon. John Thune..............................................    35

 
       THE DEPARTMENT OF TRANSPORTATION'S FISCAL YEAR 2011 BUDGET

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:18 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I apologize to all for being late, but votes 
are votes. Actually, votes sometimes aren't votes, but you have 
to do them anyway.
    I'll just make my opening statement. Senator Begich is 
going to be here, and then we'll ask you questions, after 
you've given your statement. And I thank you for coming, and I 
thank you for your patience.
    So, we meet today to look at the Department of 
Transportation's $79 billion request for 2011.
    Transportation is our country's lifeblood; it facilitates 
every aspect of the economy, creates jobs, drives new growth 
here at home while connecting even our smallest communities to 
something called a ``global marketplace.'' Yet, unfortunately, 
our world-class transportation system, which was, is aging and 
has failed to keep pace with the needs of our national economy 
and our growing population. That could be said--some could say, 
``Well, that's inevitable.'' We can't afford to say that. We 
may not get the money to do it, but we can never stop fighting 
for that.
    And while everyone understands that we have to put more 
money into our transportation system, we need to have national 
goals in drawing those plans up, and we have to have very clear 
objectives to guide and justify any kind of increase we get in 
funding, particularly under the new budget world that we are 
now living in.
    That's why Senator Lautenberg and I introduced the Federal 
Service Transportation Policy and Planning Act of 2009. To us, 
this was important legislation, because it establishes goals 
for Federal service transportation programs so that the 
American taxpayers are confident that their tax dollars are 
going to support transportation projects that improve safety, 
combat congestion, promote energy independence, address climate 
change, and, most importantly, allow our economy to grow.
    I believe that the Department of Transportation's budget 
proposal is an important first step that still recognizes the 
call for serious cost controls, which is what we have mandated 
upon us. And I'm pleased that this proposal makes sure that our 
agencies have the resources they need--I hope--to bring safety 
stage-center.
    Secretary LaHood and the DOT have been on the forefront of 
issues like distracted driving. I'm going to be doing an event 
on that when I go to West Virginia this weekend--just on that 
subject. There'll be a large turnout, I guarantee you. And it's 
great to see that he's proposing $50 million for a new 
distracted driver prevention program.
    I have proposed my own bill to combat distracted driving, 
because we already have seen too many lives needlessly cut 
short, and that doesn't even--it's going to get more and more 
complicated, worse and worse, and people will come to 
understand its threat to an even greater extent.
    This week, we heard important testimony about NHTSA's 
deficiencies in enforcing vehicle safety regulations. 
Therefore, there must be an increase in NHTSA's funding. I feel 
very strongly about that. I actually gave a question to one of 
my colleagues, because it was so good that I felt like being 
generous. But, it made the point that we're spending more to 
secure and protect our new embassy in Baghdad than we are on 
all of NHTSA, and therefore all of safety in--you know, in all 
of its forms. And that happens every year.
    So, again, we have to have an increase in NHTSA's funding, 
to hire more vehicle safety engineers, to investigate vehicle 
defects. The FAA has hundreds of them. You know, NHTSA, 
somehow, just doesn't have that many. They're going to get 60 
more; that's not enough. They have to cover all modes of 
transportation. And I feel strongly about that, but we'll see 
what we can do.
    I know the Administration has proposed a slight increase 
for more personnel, but that proposal is simply not enough to 
address the problems that this committee has uncovered to date 
with vehicle safety, much less other kinds of transportation 
safety.
    I look forward to continuing our work with DOT to bring a 
revived and very proactive commitment to safety and shared 
responsibility to our roads, and to ensure the resources are 
there for other agencies to take a similar focus on safety, as 
well.
    For example--I just said this--the FAA is committed to 
addressing pilot fatigue and training. They have the people to 
do that; they have the people to stay on that, a problem that 
was terribly highlighted in that Colgan flight, tragic 
accident, just over a year ago.
    This budget also proposes $1.1 billion to jump-start the 
modernization of our air-traffic control system. I could go on 
for 3 days talking about that and my frustrations in fighting 
for that in the past several years. We have to have that. It--
we're the only country in the industrial world that doesn't 
have it. Mongolia has it. We don't. They do. But, we've got--I 
think, what--36,000 airplanes in the sky at any given moment, 
during the course of a day, probably fewer in the nighttime. 
So, the question--these TRACONs, they have to keep track of 
these folks, and they're just using ground radar, and it's like 
X-rays, as opposed to MRIs or CAT scans. And it means that 
airplanes have to be farther apart. They can't monitor activity 
on the tarmac as well. They can't bring people in as carefully 
as they could if they had a digitalized GPS system. And 
therefore, we could reduce congestion, we could reduce delays. 
But, we don't do anything about it. I'm not blaming you, I'm 
blaming us.
    One billion dollars has been proposed for a high-speed and 
intercity passenger rail, which continues to be a priority for 
this committee and for the Administration. And I'm encouraged 
to see that DOT's commitment to finally addressing the 
deplorable conditions--and this is distressing to me--that the 
Merchant Marine Academy, by providing $31 million to capital 
improvement programs--I'm going to ask you, in view of how 
small their budget actually is and how large their capital 
improvement requirements may be, How much is $31 million? I 
support your effort to restore the Academy to the premier 
educational institution that we all know it should be and that 
the students there deserve.
    I also want to take this opportunity to say that I know 
that we sometimes take it for granted that the engineers at 
NHTSA, the National Highway Traffic Safety Administration, 
never stop investigating the safety of our vehicles. There just 
aren't enough of them. This budget funds the agency's vehicle 
safety program, and as we explored in this week's hearing with 
Toyota's recall, NHTSA's success is fundamental to our public 
safety. They have to do it right. We need to make sure it has 
the tools and resources it needs to do the job we expect.
    I also look forward to learning more about DOT's proposed 
infrastructure fund to make Federal investments in 
transportation projects of national or regional economic 
importance, and how that funding mechanism could incorporate 
the ideas that I presented on measuring the performance of our 
transportation system.
    Finally, as we begin the reauthorize--to authorize--
reauthorize the Federal Surface Transportation programs, we 
need to continue to push for a long-term extension so that we 
have the time to develop a strong reauthorization bill that 
anticipates our Nation's future needs, while also avoiding 
another disastrous delay, as we saw recently for a couple of 
days. And I'm going to ask you about that, and you--you can 
say, ``Well, that's history.'' Well, it isn't history. It can 
happen again.
    Now, I know that DOT faces many important challenges ahead, 
even as it works to provide the safest transportation to the 
American people. But, I'm absolutely confident that, given 
proper resources and clear direction, you can, and the 
Secretary is determined to, meet these challenges and succeed. 
I assure you this committee will be tracking DOT's performance 
closely, but I also want to assure you that we're for you, that 
we're here to advocate for you as well as to, you know, to 
point to shortcomings when those might appear.
    So, thank you. I appreciate your coming, as I do appreciate 
the coming of the gentleman who can just open his front door 
and see Russia.
    Senator Begich. Absolutely, Mr. Chairman.
    The Chairman. And I'm very grateful that you are here.
    Senator Begich. It's always a pleasure to join my Chairman 
in the Committee.
    The Chairman. No, but, now you have to----
    Senator Begich. I have no eloquent opening----
    The Chairman. You have to. You have to----
    Senator Begich. I have----
    The Chairman.--so that my blathering attempt is put in some 
context.
    [Laughter.]
    Senator Begich. Then I have to just make up stuff here for 
a minute. No.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. I will say this. Mr. Chairman, thank you 
very much.
    I am looking forward to your statement. And, you know, when 
you think about all the work we're doing down the floor on 
jobs, there is no better producer of jobs than the focus of 
what you do every day in the different departments that you 
operate on, from FAA to Transportation, to others; these are 
truly job creators. So, I'm looking forward to your comments, 
and then I have a series of questions. Some will be parochial, 
but some will be a broader perspective, and some that I'm very 
interested in how the system that you operate under can 
literally be reformed to be more streamlined.
    As a former mayor, I've been subjected to--and I say that 
in a somewhat positive but negative way, too--of the Federal 
DOT system. And I think there are opportunities out there that 
could move these dollars faster to local governments to produce 
the road projects and other projects that you want to see done. 
So, I have some thoughts I want to put on the table at the 
appropriate time.
    Mr. Chairman, I can never outdo your eloquence and your 
speech, so I will just cease there, before I use up my time and 
get thrown off the table, here.
    Mr. Chairman.
    The Chairman. Do you know--thank you very much, Senator. 
There's nothing wrong with the word ``parochial.'' I mean, in 
your case, parochial is like 50 percent of the United States of 
America. So, I wouldn't get too uptight about that.
    Senator Begich. Thank you for that recognition.
    The Chairman. And that's what we're here for; we fight for 
our states, we fight for our people. And we try to--and do the 
work of the Nation, too. But, you, above all, should not feel 
uncomfortable with the word ``parochial.''
    Senator Begich. I'm glad these are recorded. I am taking 
notes for a later opportunity, Mr. Chairman.
    [Laughter.]
    The Chairman. We welcome you.
    Senator Begich. Thank you.
    The Chairman. Mr. Deputy Secretary--does that mean I--I can 
call you ``Mr. Secretary,'' can't I?
    Mr. Porcari. You can call me whatever you like, Mr. 
Chairman.
    [Laughter.]
    The Chairman. Well, I know--I understand that. But, I----
    Senator Begich. Now you see how I feel.
    Mr. Porcari. Very good.
    The Chairman. Please proceed.

   STATEMENT OF HON. JOHN D. PORCARI, DEPUTY SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Porcari. Thank you, Chairman Rockefeller, and thank 
you, Senator.
    It's great to be here to discuss the Administration's 
Fiscal Year 2011 budget request for the Department of 
Transportation.
    Secretary LaHood and I have traveled to more than 32 states 
and 72 cities in the last year, and we've seen firsthand, up 
close, how much our citizens depend on a safe, modern, and 
reliable transportation system to access jobs, healthcare, and 
other essential services.
    The President's request for next year totals $79 billion. 
That's a $2-billion increase over Fiscal Year 2010 levels. 
These resources will support the President's and DOT's top 
transportation priorities for safety on the roads and in the 
air, making communities livable and sustainable, and 
modernizing our infrastructure.
    Safety is our highest priority at DOT. Our leadership 
campaign against the perils of distracted driving--and you've 
heard Secretary LaHood being very eloquent on this--which kills 
thousands of Americans every day--every year--has been very 
effective. It's critical that we continue to lead the charge. 
That's why we're seeking $50 million for the National Highway 
Traffic Safety Administration to develop an incentive-based 
grant program that encourages more states to pass laws 
prohibiting the unsafe use of cell phones and texting while 
driving. The President is also asking for 66 additional 
personnel assigned to highway and vehicle safety issues at 
NHTSA.
    Turning to aviation, the President's plan includes over $1 
billion for NextGen, the program to modernize our air traffic 
control system. That's a $275-million, or 32-percent, increase 
over the Fiscal Year 2010 levels. These funds are essential for 
transitioning from a ground-based radar surveillance system to 
a more accurate and safer satellite-based one. This system, I'm 
pleased to report, is already in use in the Gulf of Mexico, and 
we look forward to building on our success in the area.
    Our groundbreaking investments also in high-speed passenger 
rail service, which have generated tremendous excitement around 
the country, will go a long way to enhance livability in many 
communities. Our budget seeks $1 billion to continue the 5-
year, $5-billion pledge made in this year's budget.
    We want to thank the Congress for its commitment and 
leadership on high-speed rail. The $2.5 billion provided the 
Department high-speed rail grants last year, combined with the 
$8 billion from the Recovery Act that we announced recently, 
brings us closer to ushering in a new era for passenger rail 
service in this country.
    In the area of transit safety, we're seeking $30 million to 
establish a new rail transit safety oversight program within 
the Federal Transit Administration. We have never had that 
before. This program will carry out a comprehensive safety 
oversight strategy by establishing common standards--safety 
standards nationwide, as envisioned by the Administration's 
transit safety bill.
    This is an important step forward for the rail transit 
industry, which has suffered recent accidents, as you know, in 
Washington, D.C., Boston, and San Francisco. These accidents 
are unacceptable, and we must put strong remedies in place as 
soon as possible. We urge the Congress to pass this legislation 
this year.
    Going forward, we have to find new ways to finance 
infrastructure, so we're requesting $4 billion to establish a 
national infrastructure innovation and finance fund. These 
first-year funds would be used to invest in multimodal 
transportation projects of regional and national significance. 
Our crosscutting, outcome-based approach to funding will enable 
us to move away from the silo mentality that has long hindered 
our ability to respond to local and regional needs.
    On reauthorization, the President proposes to continue 
current spending levels, with $42.1 billion for highway and 
bridges and $10.8 billion for transit. This request includes 
$150 million for the Washington Metropolitan Area Transit 
Authority to address much-needed safety-related infrastructure 
improvements.
    Transportation has to be not only safe, but contribute to 
livable, sustainable neighborhoods. The President's plan 
provides record-level investments to make our communities more 
livable. Specifically, we're seeking $527 million for livable 
communities, which will help us build on the tremendous 
successes we've achieved through our sustainability partnership 
with HUD and the EPA. Together, we're helping State and local 
governments make smarter investments in their transportation, 
energy, and housing infrastructure, with better outcomes for 
our citizens.
    And finally, we're seeking $30 million to make long-overdue 
infrastructure improvements at the U.S. Merchant Marine 
Academy, which our Nation depends on to educate and train a new 
generation of military and civilian maritime leaders. We've 
been to Kings Point. We know these investments will have a 
lasting, positive effect on this institution.
    Mr. Chairman, this concludes my remarks, and I'll be happy 
to answer the Committee's questions.
    [The prepared statement of Mr. Porcari follows:]

     Prepared Statement of Hon. John D. Porcari, Deputy Secretary, 
                   U.S. Department of Transportation
Introduction
    Chairman Rockefeller, Ranking Member Hutchison and members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the Administration's Fiscal Year (FY) 2011 budget request for 
the U.S. Department of Transportation.
    The Administration's FY 2011 budget request for the U.S. Department 
of Transportation reflects the importance of strengthening our Nation's 
transportation system. We have travelled throughout the country and we 
know first-hand how important a safe and reliable transportation system 
is to all Americans. The President's request totals $79 billion, a 
nearly $2 billion increase over FY 2010 levels. These resources will 
support the President's top transportation priorities: improving 
transportation safety, investing for the future, and promoting livable 
communities.
Highway Safety
    Safety is and will continue to be our top priority. The budget 
contains a number of new initiatives to increase road, transit, and 
aviation safety. One of the most serious issues facing drivers today is 
distracted driving. We must end the dangerous practice of unsafe cell 
phone use or texting while driving. Too many lives have been lost 
already due to distracted driving. Working together, we believe that we 
can stop this dangerous practice--and save lives. The President's 
Budget requests $50 million for the National Highway Traffic Safety 
Administration's (NHTSA) for a new incentive grant program to promote 
State laws to curtail unsafe cell phone use and eliminate texting while 
driving. Today, our children don't think twice when they ``buckle 
up''--and our goal is that tomorrow, our future generations won't think 
twice about putting down their cell phone so that they can drive 
safely. This new program will work alongside NHTSA's other highway 
safety programs in making our highways safer for everyone. The 
President is also asking for funds to support 66 additional personnel 
for NHTSA to be assigned to highway and vehicle safety issues, and $7 
million for the Federal Motor Carrier Safety Administration for 118 new 
truck safety personnel.
NextGen
    The future of aviation is in our hands. The President's FY 2011 
plan includes over $1 billion--an increase of $275 million over the 
Fiscal Year 2010 levels--for ``NextGen''--the program to modernize the 
air traffic control system. Currently, the Federal Aviation 
Administration is undertaking a long-term effort to improve the 
efficiency, safety, and capacity of the aviation system. But while we 
are talking about the future of aviation, I'm pleased to report that 
it's happening now. The funds requested under the Fiscal Year 2011 
budget request will support the transformation from a national ground-
based radar surveillance system to a more accurate, satellite-based 
surveillance system. This system is already being used in the Gulf of 
Mexico, which is improving the safety and accuracy of air traffic 
services in the Gulf. We will be building on the successes of our 
research and development, to improve capacity to the flying public. We 
will be developing more efficient routes through the airspaces, and 
improving aviation weather information. As always, as we launch these 
critical new applications, we will continue to keep our strong focus on 
safety. Under our budget request, our vision of a modernized air 
traffic control system is becoming a reality.
High Speed Rail
    The budget also continues President Obama's vision to better 
connect communities with a new, high-speed rail network. The budget 
includes an additional $1 billion for High Speed Rail. This request 
builds on the historic $8 billion down payment provided through the 
Recovery Act, and continues the 5-year, $5 billion pledge made in the 
Fiscal Year 2010 budget. The $2.5 billion provided to the Department 
for high speed rail grants last year along with our recent 
announcements of the first awards of the High Speed Rail Program will 
put us one step closer to making High Speed Rail a reality.
    This is an exciting time for the Nation. Looking ahead, high-speed 
rail will one day provide the traveling public with a practical 
alternative to flying or driving, particularly in highly congested 
areas. With trains efficiently connecting city and business centers, 
travelers will enjoy a new level of convenience not available in many 
parts of the country today.
Rail Transit Safety
    The President's request also includes resources to address rail 
transit safety. While rail transit is safe, we must take substantive 
steps now to make it even safer for the future. We are all well aware 
that rail transit has the potential for catastrophic accidents 
resulting in multiple injuries, considerable property damage, and 
heightened public concern. Following the recent tragic accidents in 
Washington D.C., Boston, and San Francisco, it is clear that we need to 
strengthen the safety oversight of transit rail operations. Our budget 
requests $30 million to establish a new transit safety oversight 
program within the Federal Transit Administration. This program will 
implement a comprehensive safety oversight strategy, as proposed in the 
Administration's transit safety bill, to establish common safety 
standards nationwide and to ensure the safety of our Nation's transit 
riders.
Investing in Transportation Infrastructure
    As we continue to focus on improving transportation safety, we must 
also rethink the way we invest in our future transportation 
infrastructure. That is why the President's plan includes $4 billion to 
establish the new National Infrastructure Innovation and Finance Fund 
(Infrastructure Fund). This is the first year of a 5-year plan to 
capitalize the fund with $25 billion. This Fund will invest in projects 
of regional or national significance, and marks an important departure 
from the Federal Government's traditional way of spending on 
infrastructure through mode-specific grants.
    Instead, the Infrastructure Fund will directly provide resources 
for projects through grants or loans, or a blend of both, enabling us 
to effectively leverage non-Federal resources, including private 
capital. The projects funded under the Infrastructure Fund will be 
based on demonstrable merit and analytical measures of performance. 
Only the most worthwhile projects from around the Nation will be 
selected. Projects eligible for funding from the Infrastructure Fund 
consist of multi-modal projects that include highway, transit, rail, 
aviation, ports and maritime components. This marks a bold new way of 
thinking about investments in our transportation infrastructure and 
will become a key component of the Administration's future surface 
transportation proposal.
    The reauthorization of the Nation's surface transportation programs 
is complex and has critical long-range implications for the future. 
While the President and the Congress continue to work on a long-term 
strategy for surface transportation, the President's plan continues the 
current levels of spending: $42.1 billion is proposed for highways and 
bridges and $10.8 billion for transit. Within this funding, $1.8 
billion is included for ``New Starts'' and ``Small Starts,'' and $150 
million to enable the Washington Metropolitan Area Transit Authority to 
focus on badly needed safety-related infrastructure improvements. 
Reauthorization is a challenging issue facing our Nation and we look 
forward to working with the Congress to design a new Federal surface 
transportation program that leads to higher performing investments, 
increases transportation options, and promotes a sustainable 
environment.
Livability
    The President's plan also provides a record investment to make our 
communities more livable. Our budget request allocates over $500 
million toward investments that support the President's multi-agency 
Partnership for Sustainable Communities. We have joined with the 
Department of Housing and Urban Development and the Environmental 
Protection Agency to stimulate comprehensive regional and community 
planning efforts that integrate transportation, housing, energy and 
other critical investments. Together, we will help State and local 
governments make smarter investments in their transportation 
infrastructure, to better leverage that investment and advance 
sustainable development.
Recovery Act
    February 17th marked the one-year anniversary of the Recovery Act 
and I am pleased to report that much has been accomplished to improve 
transportation infrastructure throughout the Nation. Overall, the 
Recovery Act provided $48.1 billion for transportation programs to be 
used for improvements to our Nation's highways and bridges, transit 
systems, airports, railways, and shipyards. To date we have obligated 
$36 billion on more than 13,700 projects nationwide.
    In addition, Section 1512 of the legislation calls upon Recovery 
Act fund recipients to report on the number of jobs created on 
individual projects. We have now completed two rounds of recipient jobs 
reporting. Based on the recent October--December 2009 reporting period, 
we have created about 41,000 direct full time equivalent jobs for 
transportation programs nationwide. I want to emphasize that the jobs 
estimates included in this report are only those directly associated 
with the individual transportation projects and do not include the many 
other jobs created due to increased demand on supply chains and other 
supporting services. When these indirect jobs are also taken into 
account, it is clear that the Recovery Act resources have made a 
significant impact on jobs and we expect these numbers to hold steady 
as some of the larger transportation projects continue to come on-line.
Conclusion
    Finally, I am proud of the proposed investments the President's 
budget makes in the U.S. Merchant Marine Academy--one of our Nation's 
five service academies. I have visited the young men and women at Kings 
Point, and I'm greatly concerned about the conditions of their 
facilities. They are old and badly in need of basic repair. The 
President's plan includes $26 million to make long overdue capital 
improvements that will help ensure midshipmen have a positive learning 
environment.
    Thank you for the opportunity to appear before you to present the 
President's FY 2011 budget proposal for the Department of 
Transportation. This plan supports our Nation's key transportation 
priorities, and makes investments that will benefit all for years to 
come. We look forward to working with the Congress to ensure the 
success of our newest initiatives.
    I will be happy to respond to your questions.

    The Chairman. Thank you.
    I'm going to start with Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Thank you very much, for being here. Last time we had a 
conversation is when--through your confirmation process. So, 
now you've been subjected to the process of working in the 
Department, and now presenting the budget.
    Couple of things. One, I greatly appreciate the increase 
that is in the NextGen. As you know, that was piloted with the 
Capstone project in Alaska, and NextGen is an incredible 
technology. The $275 million additional amount that you talked 
about, can you tell me, do you have a sense of what the 
estimate is from DOT's perspective, and what it will take to 
implement, in total, NextGen? In other words, you have a 
billion going that direction--275 add-on. What will it really 
take to finish out NextGen, in total dollars? Do you have a 
number of that magnitude?
    Mr. Porcari. Senator, I'll have to get you a total dollar 
number. This is a multiyear program, and the planning horizon 
for NextGen goes all the way to 2020----
    Senator Begich. Right.
    Mr. Porcari.--when you add in the general aviation 
implementation and equipage, for example. I'll be happy to get 
you that number.
    [The information referred to follows:]

    FAA'S capital investment for this mid-term system is expected to be 
$9.6 billion through 2015. This cost does not include research, the 
airport and associated airfield improvements, or the aircraft equipage 
that is necessary to realize a fuller set of NextGen benefits. NextGen 
costs beyond FY 2015 are still under development.
    By 2018, the mid-term NextGen system (as characterized in the FAA's 
2010 NextGen Implementation Plan) will include improvements in every 
phase of flight and fundamentally change the way things operate in the 
National Airspace System (NAS). Technologies such as Automatic 
Dependant Surveillance-Broadcast and Data Communications, combined with 
performance-based navigation procedures, will increase safety and 
capacity as well as save time and fuel, decreasing carbon emissions and 
improving FAA's ability to address noise. Common weather and system 
status information will dramatically improve flight planning.

    Mr. Porcari. The increase proposed in this budget allows us 
to move forward with some really important components of 
NextGen. I mentioned ADSB in the Gulf of Mexico has already 
started. That's a portion of the Nation's airspace system, 
where we have, at best, limited radar coverage now.
    Senator Begich. Right.
    Mr. Porcari. We have about 10,000 flights a day. NextGen 
brings a much increased level of safety to those flights.
    Likewise, some of the enabling technologies that are 
required for NextGen, like ERAM, are now operational in places 
like Salt Lake City. So, there's a steady progression of the 
components--and, as you know, NextGen is a system of systems--
--
    Senator Begich. Right.
    Mr. Porcari.--that will be completed over the next years. 
I'll be happy to put that together for the Committee and 
provide that.
    Senator Begich. That'd be great. So, you can kind of show 
me, on the national scale and then also, as you said, with the 
general aviation fleets and so forth, what their--what you 
think that will all play out, costwise and so forth; I'd like 
to get a good sense. Because I'm assuming, as you start 
ratcheting up, that number should increase, over the next 
couple years, to a higher number. But, if you could do that, 
that'd be great.
    Mr. Porcari. I'd be happy to do that, Senator.
    Senator Begich. Along with that, there are a couple of 
things. And, again, very pleased with the proposal; I think 
it's $182 million for the EAS funding--the Essential Air 
Service program. As you can imagine, in Alaska, that is 
critical, and we appreciate the President's support, appreciate 
your support, and, obviously, Secretary LaHood's, for 
recognizing the importance. That's just more for--you know, to 
say thank you for that.
    In regards to the National Infrastructure Innovation and 
Finance Fund, I want to, if you could, just make sure I 
understand. There are two parts. One, in your comment, I think 
you said ``multimodal,'' which I'm all for, but what happens, 
multimodal--rural states usually don't benefit as aggressively 
as large urban--states with large urban populations. So, I--
when you said that phrase--I liked the idea, then I heard that 
phrase. I got a little nervous, to be very frank with you, 
because in rural states, sometimes just getting--you know, I 
can't put multimodal in Kotzebue, Alaska, but I can put a 
better transportation system for their interior road structures 
there, that moves traffic better and cuts down dust pollution, 
which is a huge problem in rural Alaska. But, when it suddenly 
becomes multimodal, they're out of the question, because 
there's going to be limited multimodal in Kotzebue, but a huge 
demand. So, in this new program, how do you deal with, kind of, 
the rural states--and I use mine as one that's very rural, but 
I know West Virginia has very rural components--how do you deal 
with that to make sure we're not lost in the mix? Now, maybe 
you haven't thought that far out; I don't know. I'm just asking 
the question.
    Mr. Porcari. Senator, actually we have thought about that, 
because an infrastructure fund that works for the country's 
varied needs--and they vary greatly throughout the country--
needs to be able to adapt to whatever the local needs are. So, 
for example, in the infrastructure fund, the Secretary would 
have the authority to waive the minimum amount, which 
specifically could help rural projects which tend to be 
smaller, more specific, more localized. That's a specific 
response to make the fund as helpful as possible for our rural 
areas, as well.
    Senator Begich. Would you--and I--my--the clock says zero, 
so I'm not sure if I ran out of time already, but maybe I could 
ask----
    The Chairman. There is no clock.
    Senator Begich. Oh, there is no clock. OK. Thank you, Mr. 
Chairman. I'll just try to be brief and ask a follow-up on 
that.
    Would the--I'm nervous about waivers. Just so you know, 
because that--you know, when you have a huge project come along 
in a small rural area, it's a hard--it's hard to compete, to be 
very frank. I mean we have a hard time on Corps of Engineer 
projects, because of that exact fact. So, would you be willing 
to, maybe, have an internal discussion about a rural component 
of that, that is the same kind of innovation, same competition, 
but maybe it's rural-to-rural? I'm nervous, to be very frank 
with you--I just can give you the list of projects that I hear, 
later on from the Federal Government, that says, ``Well, it 
didn't score as high,'' and--because of A, B, C. And usually A, 
B, C is--we can't change that; we're in a rural community. Is 
there a willingness to examine that and maybe work with us on, 
maybe, some ideas on how to--I don't want to call it a ``carve-
out'' because I'm--I want to make sure that it's a fair system 
that's competitive, but maybe in a rural-to-rural versus rural 
competing against--Kotzebue competing against Los Angeles, we 
lose.
    Mr. Porcari. We would be very happy to do that, Senator. 
It's a----
    Senator Begich. OK.
    Mr. Porcari. Again, the fund needs to be relevant 
throughout the country. We will be drafting some of the 
specifics of the infrastructure fund. We will be happy to have 
that discussion. Likewise, we would be happy to brief you on it 
and go through the specifics as we're developing it, putting 
the specific proposal together.
    Senator Begich. That'd be great. I--and I--you know, I 
speak for Alaska, but I know West Virginia has some rural 
parts. I know some other states that serve on this committee.
    The last comment I'll just make, and--on this one is--and 
you don't have to do it now, unless you have a very quick 
answer--and that is, How does this compare to the TIGER grants, 
or are they two separate--or is this kind of the merging of it 
into a more formal, sustainable program, or what--help me 
understand those combos.
    Mr. Porcari. They're not formally merged, but I think one 
way to think of it is--to think of the TIGER grant process as a 
precursor and in some ways maybe a prototype for----
    Senator Begich. OK.
    Mr. Porcari.--how an infrastructure fund, which could be 
loans or grants, would function; the idea of merit-based 
project selection, of being able to fund projects that don't 
fall neatly into the silo programs that----
    Senator Begich. Very good.
    Mr. Porcari.--we have within our existing program. Those 
same principles would likely apply within the infrastructure 
fund. It's a recognition that we're looking for performance-
based outcomes and measurable outcomes on these transportation 
improvements, as well.
    Senator Begich. The TIGER grants had such a great demand--
59 billion or 50-some billion. I know mayors across the country 
saw this as a great--I mean, this is like their dream, because 
it's actually flexible; they don't get stuck in a silo. So, 
could I say this, that the--that a TIGER grant--or this new 
program--TIGER grants could morph into this newer program--and 
I don't want to put words in your mouth, but that's kind of 
where--as you called it, kind of a prototype. I'm not objecting 
to that, I just want to make sure we don't create more 
programs, but we have a very good, open program that creates 
flexibility, and that's what you're trying to achieve, I think.
    Mr. Porcari. That is what we're trying to achieve, because 
the principles are the same. I think that's a fair 
characterization of it.
    Senator Begich. Very good.
    Mr. Chairman, I'll stop there. I know you have questions, 
too, and I don't want to burn up all the time.
    The Chairman. And we can go back and forth.
    Senator Begich. Oh, that'd be great.
    The Chairman. We can interrupt each other.
    Senator Begich. We don't do that here. So, this is good. I 
look forward to it.
    The Chairman. Yes. No, this is--that's why I'm so glad you 
came, because----
    Senator Begich. Thank you, Mr. Chairman.
    The Chairman.--it's a freer, open forum.
    I'm interested in--I said ``60,'' in my statement, and it's 
66 new employees for NHTSA. But, what concerns me is that 
they--the language appears to spread them, in terms of their 
availability, across either NHTSA or the agency--I'm not--but I 
think it's probably NHTSA. Our focus is on safety, and the 
comparison and the shortfall of the comparison between safety 
people available for all forms of transportation in NHTSA and 
just anything else--you know, FAA, when they inspect. I mean, 
we were, and still are, building a small jet airplane in West 
Virginia, and there are 13,000 parts. And FAA--particularly in 
the first few models of it, FAA scours each one of those 13,000 
parts. They have the people to do it; hundreds of people. Now, 
you've got very few, and now you're going to have 66 more, and 
I'm wondering why those aren't specifically targeted. You have 
a very good reason.
    Mr. Porcari. Mr. Chairman, it's a great question. What 
we're trying to do with those 66 positions is attack all 
elements of safety. The Office of Defects Investigation is 
clearly one of them. The rulemaking process has brought some 
real safety innovations to the industry. Making sure that we 
have a strong rulemaking process is also important. The 
enforcement side of it, likewise. The research component of 
it--the industry technologies are changing very quickly. 
Safety, we think of, really, as a system, and within that 
system, we want to make sure that we're addressing every one of 
those safety issues. If there is one thing that is----
    The Chairman. Do you contract out for new innovations? Do 
you insist on doing it in-house, or do you contract out for it?
    Mr. Porcari. We do both, Mr. Chairman. We have in-house 
personnel. Because technology moves very quickly, we do need to 
go outside and get very specific expertise, which we do all the 
time, and we will continue to do. So, it's a combination of in-
house and outside, specialized expertise.
    The Chairman. But, I interrupted you.
    Mr. Porcari. If there's one thing, I think, that is drilled 
into all of our heads since we began our positions, it's 
Secretary LaHood's admonition that safety is our most important 
priority, and that certainly applies in this case. You have 
heard, from him, that we will not rest until we know the 
specifics of some of the recent defects that have been 
mentioned. We will use whatever resources we need to, to do 
that. We think of safety across the board, both within NHTSA 
and across the Department, as a really important priority.
    I would mention that one aspect of this--Secretary LaHood 
created a safety council that cuts across all the modal lines. 
So, for example, in your very apt illustration of the Federal 
Aviation Administration as a leader in safety, we can draw on 
their expertise for the other portions of the transportation 
system. I chair this activity for the Secretary. It's a very 
conscious attempt to draw on the best ideas and resources.
    Issues like fatigue and distraction cut across 
transportation modal lines, and so, a more aggressive safety 
effort includes new thinking along those lines, as well.
    The Chairman. OK. We're joined by Senator Thune, and the--
our rules here, there is no time limit, so you can talk for 3 
hours.
    [Laughter.]
    The Chairman. Now, Mark and I will be unhappy about that, 
but you can technically do that.
    [Laughter.]
    The Chairman. But, you know, one of the things--we had a 
hearing the other day; we talked about complaints. And you get 
a lot of complaints. Now, where do they go? How are they 
handled? Do the safety people read them? Because there's a 
direct relationship between doing safety and reading 
complaints.
    The President talks about reading 10 letters every night, 
and people think that's just kind of a joke. You know, I ought 
to be doing that. I read a lot of letters, but to sort of have 
the discipline of getting variated letters that you need every 
night that are fresh off of somebody's frustration and pen is 
really a good idea. So, how are complaints handled when they 
come in to your agency?
    Mr. Porcari. NHTSA alone gets, I believe, about 30,000 
complaints a year. Every one of those is looked at by staff. 
It's one of the better ways----
    The Chairman. Staff. Is that the safety staff? Is it a 
separate staff?
    Mr. Porcari. The specific staff. I will get back to you, 
Mr. Chairman, and outline the specific staff.
    [The information referred to follows:]

    NHTSA'S Office of Defects Investigation (ODI) currently collects 
consumer complaints in four primary ways. Complaints that are submitted 
by consumers via the Internet or by a Hotline representative are 
automatically entered into NHTSA's complaint data base. Complaints that 
are submitted by consumers via letter, hard copy vehicle owners' 
questionnaire or e-mail are entered into NHTSA's complaint database by 
NHTSA contractors.
    Every complaint received by NHTSA is reviewed at least twice by a 
technical expert in the ODI. If the complaint is about an issue already 
under investigation, the complaint is added to the appropriate 
investigation file. If the complaint describes a problem that is unique 
or for which no failure trend is yet apparent, it is retained in 
NHTSA's complaint database and reviewed again, with other complaints to 
determine whether there is an emerging safety issue that warrants a 
defect investigation.

    The Chairman. I really want to know that, because it's--it 
becomes incredibly important. Because complaints, if they're 
taken seriously, motivate. They can change a person's day--dump 
a person on his back or make him or her optimistic. They're 
really important, and they're--and, obviously, they're very 
real. I assume some of them are just people making it up, but I 
don't think many of them are.
    Mr. Porcari. These are very real. If people are taking the 
time to send in a complaint, in whatever form, we need to and 
do take the time to look at every single one of them. And 
it's----
    The Chairman. Who does, and where does it go after it's 
been read?
    Mr. Porcari. I will outline that for you, Mr. Chairman: who 
reads it, where it goes. And one of the primary users of that 
information is our Office of Defect Investigation.
    The Chairman. See, the word ``users'' is ephemeral, 
because--how do you ``use'' a complaint unless you've ``read'' 
a complaint? I want the answer, of course, to be that they read 
the complaint and then use the information from that to 
motivate them to do whatever. That may be totally unreasonable 
if there are 30,000 coming in a year. But, it's a question that 
I care about a great deal.
    Let me ask one more, then I'll go to Senator Thune.
    You talked about NextGen, and that really has been on--has 
bugged me for years. And you know the efforts that I tried and 
failed on. I still think I'm right, but others don't, so I 
gracefully exit the field, temporarily. But, I mean, there 
needs to be an equity in the way our air traffic control system 
is paid for. Every single plane, be it private or commercial, 
legacy or not, requires the same attention. It may have three 
people on it, it may have 300 people on it, but it requires the 
same attention, both at landing and takeoff, TRACONs--all the 
way through. And yet, one pays virtually 90 percent of the cost 
of the whole system. And I'm not--I don't think that's fair. 
So, yes, we are increasing general aviation about 30 cents-a-
gallon, and that's fine; we get a certain amount of money for 
that. But, I really don't have a sense, in my own mind, of--I 
think the Secretary--or maybe you said it--no, it was in--I 
guess it was in my briefing, that you expect to, obviously, 
expand what you've done in the Delta area.
    But, to get it done across the country is kind of a--an 
urgent demand. It's like safety--not having it cost lives, but 
that doesn't get chalked up to a lost life, because it's not an 
accident. It's just--it's something that happens--a crash or a 
tarmac incident that happens because we didn't have accurate, 
you know, laser-like oversight of it. So, you have some more 
money for that, but I'm not sure exactly how you're going to 
use it.
    Mr. Porcari. One of the ways that we've been using it is, 
as I mentioned, the greater usage of ADSB in the Gulf of 
Mexico. It is also being pioneered in other parts of the 
country. We, at the same time, need to move forward on the 
equipage issue for aircraft, to make sure that they're 
equipped. We're trying to incentivize that through the concept 
of best equipped, best served. So, the aircraft with the----
    The Chairman. How do you equip an aircraft, if you don't 
have a ground system? Or you can do it, of course, but to what 
advantage?
    Mr. Porcari. What we're trying to do, Mr. Chairman, is 
synchronize those so that the ground elements of NextGen, in--
at least in a rough sense--and the equipage, keep pace with 
each other. You're right, we need to do both of them. There are 
some very substantial gains, as you know, in safety, in 
efficiency, and on the environmental side, in things like fuel-
burn from implementation. So, we're actively evaluating and 
looking at where elements of NextGen like ADSB can best be 
implemented in the near future to get the best--the most gains, 
and we'll continue to do that.
    The increase in NextGen funding is to accelerate those 
opportunities and get some--quite frankly, some early wins that 
show the benefits of NextGen to the industry, to our traveling 
public, from all three of those perspectives--from safety, 
capacity, and in environmental savings.
    The Chairman. OK. Thank you.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. You have a statement you want to make?
    Senator Thune. Yes, if I could, Mr. Chairman. I'll submit 
it for the record, and move into some questions.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Thank you, Mr. Chairman, and thank you for rescheduling this 
afternoon's hearing. I would also like to thank Deputy Secretary 
Porcari for being here today; I look forward to your testimony.
    I have one principal concern with the Administration's budget 
proposal, and that is its policy recommendations that I believe would 
be more appropriately considered by this committee as part of 
authorizing legislation. For example, the budget proposes imposing a 
user fee on the Nation's railroads to offset $50 million of the cost of 
rail safety inspectors and related activities. That decision should be 
made only after a careful policy debate by this committee in the 
context of the rail safety program as a whole.
    The budget also proposes a new ``National Infrastructure and 
Finance Fund,'' initially funded at $4 billion, which would make multi-
modal grants and loans to projects of national and regional 
significance. I understand the Administration will be submitting 
authorizing legislation for the Fund, and again, believe that a careful 
review of the policy implications of such a Fund should be made by the 
Committee of jurisdiction before any action is taken by the 
appropriators. I also have great reservations about this type of fund, 
which I believe would principally benefit large metropolitan areas and 
ignore the needs of rural states like my own.
    Finally, Mr. Porcari, I understand the Department will be 
submitting its principles for reauthorizing the highway program within 
90 days. However, news reports suggest that actual legislation won't be 
forthcoming until next year. I hope that is not the case. The 
Administration's input, particularly on motor carrier and NHTSA 
programs, will be important to keep the programs moving in the right 
direction. But we need a formal proposal this year for it to be 
relevant to the debate.
    Thank you again, Mr. Chairman, and I look forward to today's 
discussions.

    Senator Thune. But, I want to thank the Secretary for being 
with us today and responding to some of these questions on the 
budget.
    I think some of the ground that I was going to cover has 
already been covered by Senator Begich. But, I do want to ask 
you, too--and maybe this question's been answered--when the 
Administration does intend to submit a formal proposal for 
reauthorizing the highway program, including the motor carrier 
and NHTSA safety programs. Do you have a timeline for releasing 
that?
    Mr. Porcari. Senator, we're working on building a proposal 
right now. We have been supporting an 18-month extension, which 
would take us to March of next year, and it's our intention to 
have a proposal together, including all--the many elements that 
we need for a really comprehensive authorization proposal in 
that timeframe.
    Senator Thune. And I guess I know that there's a proposal 
right now to extend this into next year, but I was sort of 
hoping that that wouldn't be the case. I think there's a lot of 
uncertainty out there right now, with the State DOTs and 
highway programs, about what the funding levels are going to 
be, and I would like to see us get to work on a highway bill 
this year. But, I guess, after what you've just said with 
regard to timing, are there any recommendations, other than 
those that are in the budget request, that you can talk about? 
Do you know any aspects of that that are--that you can discuss 
at this point?
    Mr. Porcari. Some of the general principles have been 
widely discussed, things like more flexibility. The point was 
made earlier, for State and local partners on the ground that 
actually are building and operating these projects in return 
for performance measures, where we know and can measure what 
the results are.
    I would point out, also, in terms of timing, the extension 
until December 31, starts to give the State and local partners 
the kind of consistency and predictability you need, which is a 
real contrast to short-term, 30-day extensions or even orderly 
shutdowns of the program, which we just experienced.
    Senator Thune. Right. And I wouldn't disagree with that. I 
think that a longer term is better than these short, you know, 
month-to-month type extensions that we've been dealing with 
here lately.
    One of the things that the Department's asked for is $500 
million for this new Livable Communities program, and it seems 
to me that it's a program that's going to overwhelmingly focus 
on urban areas, and I guess I'm wondering what a program like 
this will do, if anything, to help rural states, like South 
Dakota.
    Mr. Porcari. It's a fair question, Senator. It applies 
equally throughout the country. In fact, some of the principles 
and the examples of Livable Communities really were getting 
back to the quality of life that many of us enjoyed in small 
towns in the more rural areas. The concept of making 
transportation an enabler for that kind of quality of life is 
really one of the concepts behind Livable Communities. It is 
not specific just to the urban areas.
    If you look at some of the efforts that we've had, jointly, 
with HUD and EPA, if you look at where some of the TIGER grants 
have gone, it's clear that the livability portion of those 
efforts really applies, as well, in rural areas as it does 
anyplace else.
    Senator Thune. One of the other programs that is, I think, 
included in your proposals--and I think Senator Begich may have 
covered a little bit of this already, but--this proposed 
infrastructure fund and how that might be organized and how 
useful that would be to rural states--and maybe you already 
elaborated on that, but the question I would ask is, How is 
that fund going to impact TIFIA?
    Mr. Porcari. One way to think about the infrastructure 
fund, sir, is--TIFIA, as an existing program, could be part of 
a larger infrastructure fund. It could be one tool as part of 
an infrastructure fund. TIFIA's been a very successful program. 
Likewise, our RRIF program for railroads could be considered in 
the same context, part of a larger infrastructure fund that has 
both loans and grants available to attack specific 
transportation problems.
    Senator Thune. And you think it would--the infrastructure 
fund would have some value in rural areas?
    Mr. Porcari. I think it certainly would. One of the 
advantages of that infrastructure fund would be its flexibility 
to meet local needs, whatever those might be.
    Senator Thune. Would each State get some assurance or 
guarantee of funding under that? It would be formula-based? How 
is that structured?
    Mr. Porcari. The specifics of the infrastructure fund are 
something we're working on right now and we will be submitting 
as a detailed proposal. I hesitate to characterize it one way 
or another now, knowing that there's a lot of discussion and 
collaboration that we will want to go through before we have a 
specific proposal in front of you.
    Senator Thune. The--one of the other things that you--and I 
think it was a proposal in the budget, as well--deals with a 
railroad safety user fee to help offset the costs associated 
with rail safety inspectors and their activities. I think 
that's a proposal that's been made in the past on numerous 
occasions. What, I guess, gives you reason to believe that, 
this year, Congress might approve it?
    Mr. Porcari. Well, first, Senator, it's very consistent 
with ways that we fund other safety activities in the 
Department. If you think about our HAZMAT program, and pipeline 
safety, as two examples, they are funded by similar fees.
    It was also, I'm told, instituted between 1991 and 1995, so 
there is some history of that. We believe that, given the 
safety imperative of the railroad system, that it's a fair and 
equitable and an appropriate way to raise revenue--again, 
similar to other parts of the transportation system.
    Senator Thune. And I would--the only thing I would say--
and, Mr. Chairman, I think this is one of those issues that 
really ought to--it would be more appropriately considered, by 
this committee, as part of an authorizing bill. And a decision 
like that, I think, should only be made after there's a careful 
policy debate by the Committee, in the context of the rail 
safety program as a whole. But, I know it's a recommendation 
that gets made every year.
    Those are all the questions I have, Mr. Chairman. Thank 
you, sir.
    Mr. Porcari. Thank you, Senator.
    The Chairman. Thank you, Senator Thune.
    You've got a report coming out--or advisory coming out on 
pilot fatigue? I don't think it's out yet.
    Mr. Porcari. Yes. There are a couple of things going on, 
Mr. Chairman, including a rulemaking process on the hours and 
on flight and duty hours. The ``Call to Action'' that 
Administrator Babbitt led immediately in the aftermath of 
Colgan Air is--was one of the more immediate efforts on that 
issue. There's a lot of research going on related to that, as 
well, all leading to what we think will be a much more 
comprehensive approach.
    The Chairman. Comprehensive approach. Let's just look at 
that. I have to tell you--I mean, it's--I almost hate saying 
it, because it makes me sound trivial, but it was scary, this 
thing, with the child, that was landing--a couple kids landing 
airplanes for 3 or 4 minutes. And, you know, that that happens 
once in a century--I was just shocked. I was absolutely 
shocked. I mean, it--so, people just didn't care. There's 
never--and, you know, in that business, in the tower, there's 
no such thing as downtime, ever.
    I don't want tarry on that. I--but, I--you carry that over 
to the question of fatigue, and Senator Thune and I both 
represent states where, you know, we don't have a whole lot of 
jets landing in--you may, in South Dakota--we don't, in West 
Virginia. It's this stuff. And the pilots are more junior, I 
would guess. You tell me. They're probably paid less. And yet, 
you're coming out with a notice of rulemaking or whatever. But, 
at some point, you only have so many pilots, or the airplane--
airlines can only afford to have so many people.
    So, one, I want to know, with Iraq and Iran going on, each 
of them--well, both of them, somewhat down in their use of 
airplanes--what the supply is out there, and therefore, what I 
have a right, on the Commerce Committee, to expect the 
availability of people who are skilled pilots, who are 
professional pilots with military experience--maybe not private 
experience, but that they can transfer easily--who just don't 
do things like that. You know, they don't fall asleep, they 
don't--I'm not talking about the tower thing, I'm just taking 
about fatigue and what happened in Buffalo.
    You don't--you know, when people get tired, they get tired. 
And my real question is that--you know, that can be unexpected; 
they could have been up all night, for whatever reasons, and--
human behavior is a tough thing to change. You have to start 
with an ample supply of people who can fly airplanes, and do it 
well, and be aggressive, and they're young and strong and 
healthy, and well enough paid. And then you have to have two of 
them up there all the time, and there has to be sort of an 
alertness. You can't put that into rulemaking, I don't think. 
That's called ``human nature.'' And it means, I think, that the 
supply is adequate, that the pay is adequate to keep the supply 
motivated, and that there is, you know, a lot of these--you get 
onto an airplane, and it's called ``Colgan,'' but it's actually 
owned by somebody else, and so you--the flying public doesn't 
really know who it is, unless it's one of the legacy airlines. 
So, it's kind of a diffused responsibility in smaller aircraft, 
piston aircraft.
    But, how do you--you know, you say that you're going to put 
on a rulemaking. I mean, this fatigue business has to stop, and 
that's like saying people can't get fatigued. Nobody in the 
world can make that statement. So, what are some of the things 
that you think might come out of this?
    Mr. Porcari. There are a number of points you made there, 
Mr. Chairman. And one of them is--the rulemaking process, as 
it's being developed now, does need to recognize that adequate 
rest is an imperative, that there are different ways to get 
that, and trying, through the science behind it, to work around 
things like circadian rhythms and the need to have, not just 
downtime, but adequate quality rest time. That is, 
specifically, one of the things that we're trying to get to 
through this rulemaking process.
    The Chairman. Now, does the rulemaking go to the airlines, 
which then enforces it, or does it come directly from you to 
the pilots?
    Mr. Porcari. It would go to the airlines, and they would be 
required to enforce it. The important underlying concept here 
is one level of safety, Mr. Chairman, where--it shouldn't 
matter if it's an international flight, a domestic flight, or a 
regional turboprop--that one level of safety applies. 
Administrator Babbitt is very committed to this--and has been 
in his previous professional experience, too--to get to that 
one level of safety, recognizing that it will take different 
strategies for different parts of the aviation system.
    There's an important part of this, as well--the 
professionalism, which I think you've alluded to, in some of 
the questions you've asked, things like observing the sterile 
cockpit rule and paying attention to the primary flight 
instruments and making sure that the workload management within 
the cockpit is distributed correctly. All of those things are a 
product of professionalism.
    We do, and will, have fewer military pilots going into 
commercial aviation in the future; that is a fact. So, in the 
past, where there has been a fairly large supply of pilots 
coming in with thousands of hours of flight experience before 
they're getting into the commercial arena at all, will be less 
and less prevalent. That puts a premium on training skills and 
maintaining those skills. Again, I think that's part of a 
larger system of safety. We need to attack every single aspect 
of that, and that's what we're committed to doing.
    The Chairman. Well, let me give you an example. I cannot 
tell you how many times, flying out of Charleston or Morgantown 
or Clarksburg or Bluefield or whatever, that pilots just aren't 
available and they have to be flown in. So, you wait for 
several hours, and it's worth the wait, because that's the only 
place you're going to get to where you want to go--and so, 
they're flown in. But, by the act of flying them in, you're 
saying two things: One is they may very well be tired, but 
they're reacting to an emergency situation. And then, second, 
that gets back to supply. Why does that happen? I mean, it's 
not like a mechanical failure at an airline. I mean, it's just 
that there weren't enough people. So, again, the supply of 
people. Yes, it may be diminishing, but right now, I would 
think, would be a fairly healthy supply. So, can you address 
those for me?
    Mr. Porcari. Well, first, I think the rulemaking process 
certainly will have implications for the supply and the 
scheduling of pilots. We want to make sure that the industry is 
doing more realistically and more appropriately scheduling the 
flight and duty time. That's really one of the underlying 
precepts behind the rulemaking effort right now.
    The Chairman. But, the scheduling--I mean, I'm just not 
going to let you get away with that--the scheduling is done, 
and two pilots are scheduled to fly from here to there, then 
something intervenes, something happens. On the receiving end, 
in Charleston, West Virginia, I'm waiting for a couple of hours 
for two pilots to fly in from Cincinnati or Detroit or 
whatever, and I don't know what their--you know, how long 
they've been flying before that. Now, the airlines does. So, in 
order to attack the problem, you're going to have to be fairly 
severe with the airlines.
    Mr. Porcari. Yes. We will have to be--and the airlines will 
have to be both realistic and rigorous about having rested 
pilots. In your example, coming from Cincinnati to relieve the 
pilots, that clearly has to be part of the process.
    The Chairman. OK. So, what is the supplying situation now 
of professional pilots?
    Mr. Porcari. What I'd like to do, Mr. Chairman, is get you 
the exact numbers. I don't know them offhand.
    [The information referred to follows:]

    The FAA does not have projections for pilot retirements. The agency 
does publish the number of pilots certificated in both General Aviation 
and Commercial categories.
    While the FAA does not maintain pilot retiree projections, the 
Bureau of Labor Statistics projects a 12 percent increase in the demand 
for aircraft pilots and flight engineers through 2018, equating to need 
for over 27,000 new pilots and flight engineers.

    Mr. Porcari. But, we do know that there's almost a 
generational bow wave, as it were, of retirees--pilot 
retirees--that will require a lot of new entrants. I think the 
entire industry is worried about having an adequate supply of 
trained, experienced pilots. As the industry grows, that 
problem becomes even more acute.
    The Chairman. Well, that's going to be very interesting, 
what your report, so to speak, has to say on that, because 
that's--as well as your response to my question--because that's 
extremely important.
    I've just, basically, got two more questions I--well, I've 
got a lot of questions, but I'm just going to do two more.
    On Amtrak--and Senator Thune was bringing that up--and 
I'm--I don't--does Amtrak go through South Dakota, in part or 
in whole? It doesn't.
    Mr. Porcari. I don't believe so.
    The Chairman. Well, it--West Virginia is lucky, in that it 
does. You're getting another billion dollars for Amtrak. And 
so, I have a couple questions. Is Amtrak planning on expanding? 
You're asking for a billion dollars. A billion dollars to do 
what? It says here, ``Amtrak system, in complying with 
Americans With Disabilities Act.'' I guess that would mean 
that--the cars and the trains themselves, but--or how you get 
on or get off--but, what else does that billion dollars do?
    And my second question is--it would be my impression, in 
the rest of rail traffic, that the private trains that, you 
know, perform most of this, that they take care of their rail 
system, that they take care of the upkeep. On Amtrak, I don't 
know. Do you--does Amtrak--responsible for that? Do they pay 
for the upkeep of that?
    Mr. Porcari. Amtrak is either responsible for the upkeep of 
its own lines, which are the Northeast Corridor, essentially, 
or is paying, through access fees, at least indirectly, paying 
for the upkeep of lines that it operates on that it does not 
own.
    I would also point out on the Americans With Disabilities 
Act, which you mentioned, would include both the rolling stock, 
which in many cases is not ADA-accessible, but the stations and 
the----
    The Chairman. The stations themselves.
    Mr. Porcari.--stations, as well.
    The Chairman. In which case, a billion dollars isn't much.
    Mr. Porcari. That's correct. The need is large. I would 
point out, on the positive side, that the $1.6 billion in the 
President's budget, if enacted, would be the highest--I 
believe, the highest number ever for Amtrak. Significant 
progress, I think, was made through the Recovery Act. The $1.3 
billion in the Recovery Act for Amtrak returned to service some 
coaches that had been sidelined--in some cases, for years. 
Things like replacing a 102-year-old bridge over the Niantic 
River. So, some really critical and long-overdue improvements 
were funded through the Recovery Act. So, it is far from taking 
care of all of Amtrak's needs, but I will tell you the trend 
lines are positive.
    I think it's also important to state that Amtrak, for the 
first time in a long time, has put together a comprehensive 
capital program that I think is both realistic and prioritizes 
their critical needs. Like everyone else, there is more need 
than money, but they are working hard and, I think, have a good 
plan for moving forward.
    The Chairman. OK. The final thing comes out of a 
frustration with something called ``upkeep.'' I have a massive 
frustration, with respect to the Coast Guard--not against them, 
but on behalf of them--that they always seem to, you know, take 
a second place to the other services. But, they save 5,000 
lives a year. And their youngest ice cutters are--big ones--are 
45 years old. In other words, they--when it comes to the 
budget, they just get shafted. When it comes to their 
leadership, they're not four-star, they're three-star. I 
personally think they ought to be four-star. I don't know what 
we're going to do about that, but we may try to do something 
about that; simply because, in this town, if you're a three-
star, people listen to you a whole lot less than if you're a 
four-star. And I'm not trying to interpret the military 
culture, but that's sort of the way it works, and I don't think 
the Coast Guard should take a second seat to anybody, in terms 
of our Nation's needs.
    Now, in the MARAD account, you have the Merchant Marine 
Academy. You spoke about it. And you may not be able to give me 
now, but I want to have a sense of, over the past decade, what 
has been their tendency. I'm mean I'm not just talking about 
painting windows, but basic replacement of pipes and electrical 
circuitry and all the rest of it that keeps, simply, the 
facility going. I'm not talking about the educational program 
or anything else. I'd like to, but I'm not, on this. And what, 
you know, is--you have--the 2011 request is $352 million, which 
is a cut of $11 million. The first place, when it comes to cut, 
is deferred maintenance.
    [The information referred to follows:]

    Here is a list of capital improvement projects that have been 
completed or in progress over the last ten Fiscal Years.
    The majority of the buildings on the U.S. Merchant Marine Academy's 
82-acre campus were built within 18 months during World War II. Many of 
the original campus buildings, academic structures, and gymnasium still 
remain the same as when they were first built in 1943.
    To identify the Academy's capital improvement needs, a detailed 
facilities master plan was developed in 2002 by an Architecture/
Engineering firm. This plan was subsequently updated in March 2008. 
Through Fiscal Year 9, the Academy has received close to $119 million 
which is consistent with this capital plan. The table below provides a 
list of completed capital improvement projects that have been completed 
or are in progress.

                        USMMA Capital Improvement Plan Projects Completed or In Progress
----------------------------------------------------------------------------------------------------------------
                                            Projects:                                                  Total
----------------------------------------------------------------------------------------------------------------
Design of six barracks and modification of rooftop parapets                                           $3,000,000
Reconstruction of roofs to Barry and Jones Halls (Dormitories)                                         2,900,000
Construction contract for Jones Hall (1st of 6 Dormitories)                                           12,900,000
Safety, ADA, EPA, OSHA Projects                                                                        7,400,000
Critical deferred Maintenance for Academic Facilities and Physical Plant                              28,300,000
Capital maintenance for TV KINGS POINTER                                                               3,400,000
Restoration of Waterfront Seawall (First of several phases)                                            5,200,000
Construction contract for Barry Hall (2nd of 6 Dormitories)                                           12,500,000
Preliminary design for Ceremonial Center (Supplemental Operational Funds)                                419,000
Mariner's Memorial Chapel Structural Repairs                                                           3,500,000
Maintenance Dredging of Basin to Permit Training Ship Unrestricted Access                              3,200,000
Initial Design of Mallory and Crowninshield Pier Renovations                                             600,000
Construction Contract for Palmer Hall (3rd and Largest of 6 Dormitories)                              17,690,000
Construction Contract for Murphy Hall (4th of 6 Dormitories)                                          17,750,000
----------------------------------------------------------------------------------------------------------------
    Total                                                                                           $118,759,000
----------------------------------------------------------------------------------------------------------------


    I was President of a private college for 4 years, and--
during the early recession, in the 1980s--and that doesn't work 
well. You defer maintenance, you pay, big-time, for it later 
on. In terms of attracting people into the academy--students to 
come there--maintenance is important--what their rooms look 
like, how are they equipped, are they computer-friendly, all 
the rest of that.
    So, what do you do when you have an $11-million cut for 
MARAD, and you want to keep up to date on renovating the campus 
facilities at the Marine Academy?
    Mr. Porcari. Secretary LaHood has made the Merchant Marine 
Academy a real priority and a personal priority. In part, I 
think it's fair to say, it's because of his perception, when he 
first visited, of the state of the physical infrastructure on 
the campus.
    I think all of us who are involved in it feel the same way. 
We know--and I'll be happy to put together for you, Mr. 
Chairman, what's happened over the last decade, in terms of 
investment or lack of investment. And it shows. We have made a 
commitment to the midshipmen, we have made a commitment to the 
families, and to the faculty and staff, that we are going to 
improve that.
    What you see in the President's budget is a substantial 
commitment, and actually the beginnings of a real capital 
program, to first renovate some of the facilities that are far 
behind the curve for renovation, and getting to a more rigorous 
system of maintaining a state of good repair of the facilities. 
Again, none of us would argue that that exists now. It is 
something we are very much committed to. We believe that the 
specific improvements that we will be undertaking, and the 
dollar amounts, are sufficient to actually get us started on 
that road and make a substantial beginning on it.
    We also have a blue ribbon committee, led by Admiral 
Barrett, the previous Deputy Secretary, who have looked 
comprehensively at the Academy, including the facilities and 
the facility needs, and will be reporting in shortly on that. 
So, this is a diamond-in-the-rough, in a sense, for the Nation. 
It has an incredibly important mission for the Nation's future 
maritime leaders. I think all of us would concede that we have 
not done the job we need to in the past in maintaining the 
facilities, in providing the opportunities, both with physical 
infrastructure and other elements of the academy. We're 
committed to doing that, and Secretary LaHood has devoted 
considerable personal time to making sure that happens.
    The Chairman. Well, you tell him I'm pleased, that I'm 
really glad he feels that way, because when it--with the size 
of the budget he has, and all the responsibilities that he has, 
that Academy needs a champion. And I'm not saying there aren't 
a lot of champions that are fighting for it, but I'm saying 
having the Secretary of Transportation fighting for it is 
really, really important. And so, I'll be interested to hear 
from you and see what's going on there.
    Mr. Porcari. I look forward to that.
    The Chairman. But, those places----
    Mr. Porcari. He's clearly----
    The Chairman. I mean, that's--those are fine young men and 
women; I've seen them. We have 200 of them in West Virginia. 
And they're spectacular. I don't think anybody in West Virginia 
knows they're there. I didn't until I went to visit them.
    Mr. Porcari. And when they graduate, sir, they're in 
incredible demand. They form the underpinnings, really, of a 
U.S. maritime fleet and a U.S. maritime capability. Whether 
they're in civilian service or in the military services--and 
they, as you know do both--they're incredibly valuable and 
well-trained.
    The Chairman. I agree. Look, I thank you very much. I mean, 
this----
    Mr. Porcari. My pleasure.
    The Chairman.--this could go on endlessly. But, you've been 
very forthcoming and very good, and I appreciate it.
    Mr. Porcari. It's my pleasure, Mr. Chairman.
    The Chairman. And I'm sorry that I was late.
    Mr. Porcari. Not a problem at all. My pleasure.
    The Chairman. Well, at least we had a full turnout.
    Mr. Porcari. Thank you.
    The Chairman. Thank you.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. John D. Porcari
    Question 1. Does the FAA's budget proposal provide sufficient 
resources to adequately implement the NextGen initiatives required by 
[the Senate version] of FAA reauthorization?
    Answer. The FY 2011 budget request will allow FAA to accomplish its 
current NextGen commitments and milestones. If the provisions of the 
Senate version of FAA reauthorization are passed, FAA will make the 
appropriate adjustments to reflect any necessary changes to existing 
plans.

    Question 2. Why has the budget for installing ADS-B 
infrastructure--the cornerstone of the FAA's GPS-based system--been 
reduced in FY 2011 at a time when it is being deployed nationwide?
    Answer. The baseline funding profile for ADS-B accounts for a 
significant amount of development work (defining, designing, and 
building the system) to be performed leading up to the In Service 
Decision (ISD) in September 2010. The ISD will authorize FAA to proceed 
with full NAS-wide deployment. While there is an extensive amount of 
work required to deploy the system, it is anticipated that there will 
be a reduction in required resources as the program shifts from the 
development to deployment phase.
    In addition, most of the software development efforts for the 
automation platforms, with the exception of ERAM, will be completed in 
2010. Also, the contract with ITT will transition from being cost-plus 
to a fixed price subscription charge for ITT services to provide 
surveillance inputs.

    Question 3. On March 1, 2010, the Department of Transportation had 
to furlough nearly 2,000 employees and shut down highway reimbursements 
to states worth hundreds of millions of dollars because the Senate 
failed to extend the authorizations of the surface transportation 
programs. What is the total financial impact of this furlough on the 
states? What is the value of the productivity lost because of the 
furlough?
    Answer. The Federal Highway Administration (FHWA) temporarily 
suspended reimbursements to states from March 1, 2010 through March 2, 
2010, due to the expiration of authority to make expenditures from the 
Highway Trust Fund. This meant a delay in reimbursing the states over 
$141 million for costs already incurred. On March 2, 2010, the 
Temporary Extension Act of 2010 (Public Law 111-144) extended surface 
transportation programs and the related authority to make expenditures 
from the Highway Trust Fund. All pending State reimbursement requests 
were processed the next day minimizing, if not eliminating, any direct 
financial impact on the states.
    The value of productivity lost because of the furlough is difficult 
to determine but must take into account the work lost for nearly 2,000 
Department of Transportation employees being unable to oversee the many 
programs and billions of dollars in their charge. States, which depend 
on Federal funds as an important component of their total highway 
investment and capital planning, generally took a wait and see approach 
and did not modify their practices during the two-day period.
    I am pleased that Congress has since passed an extension of surface 
transportation programs through December 2010. This will give Congress 
and the Administration more time to reach consensus on new, long-term 
legislation and a way to fund it.

    Question 4. What is your timeline for submitting a reauthorization 
proposal to Congress?
    Answer. Secretary LaHood has committed to releasing principles for 
a reauthorization bill as soon as they are ready in order to lay out a 
framework for reauthorization and engage in more substantive 
conversations with our partners on Capitol Hill. We hope to use the 
time between now and the end of the year, when the current extension of 
the surface transportation program runs out, to make progress in 
developing long-term legislation.

    Question 5. Besides using this committee's recommendations, how 
else does the Administration's plan address the dangers of distracted 
driving?
    Answer. The Department is developing a Distraction Plan which will 
outline our efforts in four categories: improving the understanding of 
the problem, reducing driver workload from in-vehicle systems 
(interfaces), keeping distracted drivers safe (e.g., crash avoidance 
warning and distraction monitoring system research), and increasing 
public awareness to recognize the risks and consequences of distracted 
driving. The National Highway Traffic Safety Administration (NHTSA) has 
also published a model law, which can be used by states when drafting 
new texting laws.
    We have already begun several other projects outlined in the Plan. 
For example, NHTSA is exploring ways to improve police reporting of 
distraction-related crashes. NHTSA has also begun demonstration 
programs in New York and Connecticut to test whether the High 
Visibility Enforcement model used in other programs (``Click It or 
Ticket'' and ``Drunk Driving. Over the Limit. Under Arrest.'') would be 
effective for distracted driving.

    Question 6. When do you anticipate that the DOT will issue the UCR 
fee assessment rulemaking for 2010 so that states will have funding 
certainty for their motor carrier safety enforcement efforts?
    Answer. The Department submitted the UCR fees draft final rule to 
OMB on March 9, 2010. The Department anticipates publication of the 
final rule in the summer of 2010. In addition, on March 2, 2010, the 
Federal Motor Carrier Safety Administration published in the Federal 
Register Regulatory Guidance Concerning the Applicability of Fees for 
the Unified Carrier Registration Plan and Agreement (see 75 FR 9487). 
This guidance allows states participating in the UCR Plan to consider 
the option of assessing and collecting fees for registration year 2010 
by applying the current fee structure. This option allows participating 
states to continue meeting their commitment, in accordance with 49 
U.S.C.  14504a(e)(1)(B) ``that an amount at least equal to the revenue 
derived by the State from the unified carrier registration agreement 
shall be used for motor carrier safety programs, enforcement, or the 
administration of the UCR plan and UCR agreement.'' In addition, 
participating states will also have funds available to meet their share 
of the costs of participating in the Motor Carrier Safety Assistance 
Program's grants, as permitted by 49 U.S.C.  31103(a).

    Question 7. What is or what should be the collective plan between 
Congress, the DOT, and the public and private railroads to make sure 
the investments are made to meet the Positive Train Control (PTC) 
installation deadline?
    Answer. FRA recognizes the regulatory responsibility public and 
private railroads face in meeting the December 31, 2015 PTC 
implementation mandate. There are significant costs associated with 
procurement and installation of the necessary equipment and with the 
resolution of technical challenges posed by the requirement for 
interoperability.
    Cost to comply with the Positive Train Control rule will be borne 
by the regulated entities, the railroads and rail system users. 
However, at the Federal level there are a number of programs available 
that railroads can access to finance investments like PTC. They include 
the Railroad Refinancing Investment Fund (RRIF) loan program, the DOT 
TIGER grant program, and the proposed National Infrastructure and 
Investment Fund (I-Fund).
    In FY 2010, the authorized level of $50 million was appropriated to 
FRA for the Railroad Safety Technology Grant Program. To generate the 
maximum impact with these funds, FRA plans to target awards to projects 
that have a multiplier effect and that can effectively address broader 
PTC implementation issues such as the resolution of the technological 
challenges created by the PTC interoperability requirements. FRA has 
posted this funding opportunity on Grants.gov and applications are due 
July 1, 2010. FRA intends to announce award recipients by the close of 
the calendar year.

    Question 8. What progress has PHMSA made on its hazardous materials 
special permits action plan to address these issues?
    Answer. PHMSA has taken aggressive, comprehensive and expedited 
action to address the issues identified by the Office of the Inspector 
General (OIG) and House Transportation & Infrastructure (T&I) 
Committee. A number of actions have been completed and even more are 
underway to address every issue identified in both the special permits 
and approvals program, including improving standard operating 
procedures, implementing company fitness determination, IT 
modernization and training of personnel. With current funding levels, 
PHMSA has been able to utilize staff and resources to continue 
addressing these commitments.
    To further improve our strong safety record PHMSA has conducted 
thorough reviews of its policies, procedures, staffing needs and action 
plans. Addressing these various areas has already significantly 
improved oversight and accountability. We are dedicated to ensuring 
that operations authorized by special permits and approvals meet the 
same high safety standard provided by the Hazardous Materials 
Regulations (HMR).
    PHMSA has begun to execute action plans that have been specially 
designed to establish initiatives prioritized according to a 
combination of criteria including deadlines, overall urgency, staffing 
and budget resources. To implement these initiatives, PHMSA assessed 
and identified a means to enhance procedures, reduce redundancies, and 
increase oversight and accountability.
    Another key effort in this mission is to enhance data analysis to 
strengthen program oversight through IT modernization. This is 
especially important for facilitating the special permits and approvals 
process. System modernization will enable the agency to process 
applications to synthesize their safety and performance information 
more efficiently--a process that will also benefit private companies 
when applying for special permits or approvals.
    A special management team is designated to address and monitor the 
causes and effects of PHMSA's plans. The team routinely evaluates 
whether action items are complete or whether additional revisions are 
needed.
    More information regarding PHMSA's three action plans (listed 
below) can be found at http://hazmat.dot.gov.

  <bullet> Action Plan for Special Permits Program

  <bullet> Action Plan for IT Modernization and Data Collection/
        Analysis

  <bullet> Action Plan for Approvals Program

    Question 9. How does the Department propose to provide the same or 
improved level of air service to small communities while spending less 
money on Essential Air Service?
    Answer. The FY 2011 EAS request of $182 million (including $50 
million of mandatory funding from over-flight fees) was based on our 
best estimate of the FY 2010 annualized cost of the EAS program at the 
time the FY 2011 Budget was developed. The budget proposes authority to 
restrain the rate of growth of the program by limiting it to those 
communities receiving subsidized service on October 1, 2010. In 
addition, the FY 2011 Budget provides for the transfer funds from FAA 
to cover additional subsidy costs that may arise in FY 2011, such as 
subsidy rate increases, thereby ensuring that adequate funds will be 
available to fully fund the EAS program.

    Question 10. Providing sufficient funding for the EAS program has 
been a continuing challenge. Is the Department working on finding long-
term solutions to make certain small communities continue to have 
access to air service?
    Answer. The Department is reviewing the challenges facing EAS and 
looks forward to working with Congress in an effort to develop a more 
efficient and sustainable program. We have also formed the Federal 
Aviation Advisory Committee to provide advice and guidance on a broad 
range of aviation issues, including rural air service issues.

    Question 11. The budget proposes to limit EAS to those communities 
that receive subsidized service on October 1, 2010. How will small 
communities that do not receive service on that date deal with this 
restriction in the future?
    Answer. The Department has considerable experience in working with 
small communities and carriers on air service issues, and will be 
pleased to extend that technical assistance to affected communities.

    Question 12. Local and State governments are currently facing a 
lack of access to credit markets. Has this led to an increase in demand 
for TIFIA loans, loan guarantees, and lines of credit? DOT announced a 
new round of applications for the TIFIA program in December but the 
program is expected to once again be oversubscribed. How will the 
Administration prioritize these projects? What can be done to provide 
funding for worthy projects of regional or national significance that 
do not receive funding?
    Answer. The TIFIA Program has seen a huge increase in demand for 
credit assistance as a result of the financial crisis. TIFIA has been 
oversubscribed since FY 2008 and does not have sufficient budget 
authority to support all the projects seeking credit assistance.
    In a recently published Notice of Funding Availability (NOFA), 
TIFIA solicited Letters of Interest (LOIs) from project sponsors 
seeking to apply for a limited amount of TIFIA resources currently 
available. TIFIA received 39 LOIs in response, requesting almost $13 
billion in credit assistance to finance over $41 billion in total 
project costs. The magnitude of requests for the TIGER Discretionary 
Grant Program was even greater--$59.7 billion in requests for only $1.5 
billion in available grant money. Whether it is through grants or 
loans, State and local governments are clearly seeking Federal support 
to deliver transportation projects.
    In addition to announcing the availability of a limited amount of 
TIFIA resources to support new loans, the NOFA clarified TIFIA 
selection criteria by incorporating consideration of livability, 
economic competitiveness, safety, sustainability, and state of good 
repair. In general, DOT will give priority to projects that have a 
significant impact on desirable long-term outcomes for the Nation, a 
metropolitan area, or a region.
    TIFIA may exercise its authority to charge borrowers an up-front 
fee to help offset a portion of the cost to the Government of providing 
credit assistance as a means to stretch limited resources and further 
leverage Federal dollars. This would make TIFIA credit assistance 
available to more qualified projects than otherwise possible.

    Question 13. What role can the TIFIA program play with the Livable 
Communities program in the President's FY 2011 budget? Will the 
partnership with HUD and EPA on livable communities be extended to 
include financial assistance for communities that are looking to 
promote these types of projects?
    Answer. Our current livable communities proposal is focused on 
capacity building exercises, not construction. While this work is 
important and will save money long-term through better planning with 
better information, it is not expensive and would not require 
financing.
    A sponsor seeking funding for a project that improves livability 
will have the same options as any other sponsor. Should DOT identify 
barriers to funding these types of projects, we may propose changes to 
programs in reauthorization to help remove those barriers.
    For states that turn to the TIFIA program for support for large 
scale projects that improve livability, those applications would have 
to meet TIFIA standards and requirements and be competitive against 
other applications. Through competitive grant programs, like TIGER, 
there might also be projects that support livability seeking innovative 
financing. However, those projects would be reviewed according to the 
same criteria as any other application for funding.

    Question 14. The Administration has requested 33 new FTE positions 
for NHTSA or 66 positions. How many of those positions would be 
dedicated to vehicle safety? What steps are being taken to provide 
NHTSA the internal software and electrical engineering expertise 
necessary to identify vehicle defects in the market?
    Answer. The President's FY 2011 budget requests an additional 66 
positions (33 FTEs) to be strategically used by NHTSA to address high 
priority safety areas. Of the 66 additional personnel requested, 46 
positions (46 full time positions-FTPs; 23 full time equivalents-FTEs) 
would be dedicated to support electrical vehicle safety, light vehicle 
and heavy duty truck fuel economy and labeling standards, and import 
surveillance of automotive equipment coming into the U.S. from foreign 
countries.
    NHTSA's Office of Defense Investigation, which conducts vehicle 
research investigations, is assessing its need to determine what 
additional resources in electronics, computer science, or other areas 
of specialization are needed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. John D. Porcari
    Question 1. We are very grateful in Florida to have been awarded 
one of the largest high speed rail grants for the first phase of our 
statewide system, which will go between Tampa and Orlando. As with many 
of the grant winners Florida was awarded half of what it requested--so 
it will be able to get well underway with construction, but still has 
to find the rest of the money somewhere too. Since I know you want to 
see this project be successful just as much as we do, considering you 
are investing a great deal in it, how do you plan on awarding future 
high speed rail grants in the future? Will you focus on the projects 
you have already chosen, or will it be a new competition every time?
    Answer. Florida offers an opportunity for an early success for 
high-speed rail, but many issues, including program management 
structures and the State's commitment to ensure operating costs will 
not become the responsibility of the Federal Government, still need to 
be addressed before the Department will commit significant funds for 
construction. These issues have been conveyed to the State.
    The HSIPR Program remains a competitive program. The Federal 
Railroad Administration (FRA) will solicit applications under its FY 
2010 program later this spring. If Florida demonstrates all of the 
identified issues have been resolved, it may score well against the 
evaluation criteria for these new applications.

    Question 2. Why does the budget request for FY 2011 not include any 
funding for the MARAD Title XI loan guarantee program?
    Answer. While the request does not include new loan subsidies for 
FY 2011, the request does include $3.7 million for Title XI 
administrative expenses to enable the Title XI program to comply with 
the Federal Credit Reform Act and the OIG and GAO recommendations on 
portfolio management. No new funding for subsidies is requested in FY 
2011 because ample resources received from DOD are available.
    The current Title XI subsidy balance for new loans is $78 million. 
The $78 million comprises carryover funding and funds provided in FY 
2010 appropriation. The funding will enable MARAD to issue commitments 
to several credit-worthy applicants whose projects are technically, 
financially, and economically sound.

  <bullet> FY 2010 carryover subsidy is $43 million ($48 million was 
        received in Department of Defense FY 2009 appropriations for 
        loan subsidies).

  <bullet> $30 million is provided in the Department of Defense FY 2010 
        appropriation.

  <bullet> $5 million is provided in the Department of Transportation 
        FY 2010 appropriation.

    The recent Vessel Management loan to subsidy ratio was 17 to 1. 
Projecting this ratio on the remaining subsidy funds could generate 
approximately $1.3 billion in additional loan guarantees.
    As of December 31, 2009, MARAD's current portfolio was 
approximately $2.3 billion. This represents 63 loan guarantee contracts 
for 2 shipyard modernizations and over 300 vessels.

    Question 3. We've talked a lot about the huge number of 
applications you received for TIGER grant funding--over 1,400 
applications worth almost $60 billion, for only $1.5 billion in 
available money. I know that the budget request has $4 billion for a 
new Infrastructure Fund; could you expand on how that will work, and 
how it will address the massive need we have to invest in regionally-
significant infrastructure projects?
    Answer. The National Infrastructure Innovation and Finance Fund (I-
Fund) will be established as a new entity within the Department. The I-
Fund would be headed by a Director, appointed by the President, who 
would oversee the day-to-day operations and report to the Secretary. 
The I-Fund investments would be governed by a policy and investment 
advisory group of Federal officials that would establish and maintain 
the criteria for the evaluation of investment projects and make 
investment recommendations to the Secretary of Transportation. The 
administrative structure of the I-Fund would include offices of policy, 
budget, finance, administration and others as appropriate.
    The I-Fund will have the authority to issue loans, grants, or a 
combination of both. Although the request for FY 2011 is $4 billion, 
the requested I-Fund capitalization over a 5-year period is $25 
billion. By using credit assistance to leverage the Federal investment, 
the I-Fund could assist with over $60 billion in infrastructure 
projects. The projects that would receive the highest priority are 
those that are regionally or nationally significant and would be 
difficult to fund otherwise. These projects would have a demonstrable 
merit and provide a significant economic benefit.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. John D. Porcari
    Question 1. The United States currently lags behind other developed 
countries in use of passenger rail. Development of a strong high speed 
rail network is critical to reducing congestion in the air and on the 
roadway network. Unfortunately although the Intermountain West has been 
identified as the fastest growing region in the United States, only 
minimal funding was provided to states in the region wishing to develop 
high speed rail.
    This budget provides for $1 billion in High Speed/Intercity Rail 
funds. How will you ensure that these funds support a high speed rail 
system that is truly a national system that includes the intermountain 
west?
    Answer. The Department believes that the high-speed intercity 
passenger rail program needs to be national in scope, under which 
projects are identified where significant investment is justified 
relative to the regional and national economic and transportation 
benefits generated.
    We recognize that many states have not yet undertaken the basic 
planning necessary to develop a comprehensive intercity passenger rail 
plan at a level of detail that supports allocation of significant 
amounts of limited resources in a merit-based competitive program.
    As part of the Department's FY 2011 President's Budget request, we 
specifically proposed funding for high-speed rail planning activities 
to assist states, such as those in the intermountain west, develop 
their plans so that they are better positioned to participate in the 
High-Speed Intercity Passenger Rail Program.

    Question 2. New Mexico is a primarily rural state. The proposed 
National Infrastructure Innovation and Finance Fund is anticipated to 
work similar to the TIGER grants program and provide funding 
recommendations based on demonstrable merit and analytical measures of 
performance. You have testified that it will invest in projects of 
regional or national significance. What criteria do you foresee being 
established to ensure equitable distribution to ensure that projects 
from smaller, more rural states are competitive in the granting 
process?
    Answer. The Administration recognizes that resources of the 
National Infrastructure Innovation and Finance Fund can benefit smaller 
states and rural areas as well as larger states and more urbanized 
areas. Although the minimum grant size for a capital project or a 
unified program of smaller, related projects would generally be $25 
million, the current proposal for the National Infrastructure 
Innovation and Finance Fund would allow the Secretary to waive the 
minimum grant size for the purpose of funding significant projects in 
smaller cities, regions or states.

    Question 3. The Department of Transportation's FY 2011 budget 
proposes limiting the Essential Air Service program to those 
communities in the EAS program on October 1, 2010. This could impact 
three New Mexico that qualify for EAS but do not currently receive EAS 
support. While I agree that the program could be more efficient, I am 
concerned about how this DOT proposal could potentially harm two small 
communities in my state. How would the Administration propose to 
mitigate the impact to small communities that currently qualify for, 
but do not receive, EAS support if their sole commercial carrier 
decides to no longer provide service to their community?
    Answer. The Department has considerable experience in working with 
small communities and carriers on air service issues, and will be 
pleased to extend that technical assistance to affected communities in 
New Mexico and elsewhere.

    Question 4. The FY 2011 proposes $527 million for a livable 
communities program. Livability is a term most often used in 
transportation discussions about large metropolitan communities. The 
budget provides for 10 employees but does not elaborate how the 
remaining funds will be distributed. How will the $527 million be 
spent?
    Answer. DOT requested $527 million for livable community efforts 
for FY 2011. This funding will be divided into three programs: a 
Livable Communities Program within the Office of the Secretary (OST); 
transit funding to support livable communities in the Federal Transit 
Administration (FTA); and a capacity-building grant program in the 
Federal Highway Administration (FHWA). The purpose of these programs is 
to provide transportation practitioners with the tools, resources, and 
capacity they need to ultimately develop a transportation system that 
provides transportation choices and complements land use, housing, and 
water investments.
    DOT has requested $20 million in the FY 2011 budget to establish a 
new Livable Communities Program, including a new Office of Livability 
within OST. This Office will provide leadership for DOT's livability 
efforts, coordinate livability programs across the Department's modal 
administrations, provide grants and technical assistance for improving 
local public outreach, and assess the effectiveness of various programs 
in supporting livability. Having one office focused on aligning 
Departmental programs and priorities will significantly improve the 
effectiveness of DOT's program delivery. Additionally, the Office of 
Livability will serve as the focal point for interagency efforts such 
as the Partnership for Sustainable Communities. This will include 
spearheading efforts such as developing metrics and performance 
measures for livability.
    DOT's request of $307 million will refocus existing FTA programs to 
expand transit access for low-income families and increase the planning 
and project development capabilities of local communities. This program 
would provide effective transportation alternatives that increase 
access to jobs, health and social services, and other activities. 
Aligning current programs, such as the Job Access and Reverse Commute 
formula grants, Alternatives Analysis grants, and formula grants for 
State and metropolitan planning, would allow DOT to fund efforts with 
HUD and EPA to develop strategies that link quality public 
transportation with investments in smart development.
    DOT has requested $200 million in the FY 2011 budget to fund a 
competitive livability program within FHWA. The focus of this 
discretionary grant program is to increase capacity at all levels of 
government to integrate transportation, housing, economic development, 
and water infrastructure planning and investments while enhancing 
natural resource conservation and improving health in urban and rural 
communities. The funds could be used to improve modeling and data 
collection--especially for transit and active transportation--provide 
training, and support organizational changes to better carry out 
integrated planning. This assistance would be available to states, 
local governments, and tribal partners.

    Question 5. How will this funding improve the livability of 
communities in more rural states such as New Mexico?
    Answer. The emphasis in the FY 2011 budget request for capacity 
building can specifically help small communities who have outdated 
models, poor data collection, and low technical expertise because of 
budget or personnel limitations. The competitive grants for capacity 
building would target those communities most in need of capacity 
building in order to promote regional capacity for comprehensive 
planning. This can be of great use to small and rural communities that 
need this type of assistance to succeed in the Federal grant process 
for other types of projects.
    Additionally, Rural and small communities will have an opportunity 
to submit ``Livable Communities Program'' grant applications through 
the State Department of Transportation for consideration of an award by 
the FHWA. State Departments of Transportation, Metropolitan Planning 
Organizations, local governments (including rural and small 
communities), tribal governments, and transit authorities may all apply 
for ``Livable Communities Program'' funding for eligible projects that 
demonstrate the development and implementation of transformational 
changes and advances in livability.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. John D. Porcari
    Question 1. In February, Amtrak released a comprehensive plan for 
the recapitalization of its fleet. What are the Department's views on 
this plan? What role do you envision for the Department in helping to 
implement it?
    Answer. The Department recognizes that the fleet plan offers a 
comprehensive view of Amtrak's current equipment needs. The plan also 
outlines the timing of acquisitions necessary to keep equipment 
availability from adversely impacting Amtrak's continuing ability to 
meet current service needs with modest growth.
    FRA is actively discussing with Amtrak, both separately and as part 
of the Next Generation Corridor Train Equipment Pool Committee, the 
financial structures and other opportunities available to help procure 
this essential equipment.

    Question 2. One of the keys to realizing the President's vision for 
high-speed rail will be integrating intercity passenger rail service 
and stations with local transportation systems and ensuring they are 
supported by land use patterns that are conducive to rail travel. To 
what extent do you envision complementary roles between the proposed 
FHWA and FTA Livable Communities programs and the President's high-
speed rail initiative, so as to promote not only sustainable and 
integrated transportation choices within communities, but also between 
them?
    Answer. The President's high-speed rail initiative supports the 
livability goal by providing modal choices for travelers and improving 
the sustainability of our transportation system. High-Speed Rail 
stations can serve as multi-modal hubs providing inter- and intra-city 
connectivity that is safe and reliable. Coordination between FRA and 
FTA and FHWA is essential to ensure complete access to these hubs. 
High-Speed Rail will enhance the livability of the communities it 
serves and the stations can be anchors for Transit Oriented Development 
Coordinating our development and planning dollars with the rail 
initiative will ensure that we can support the growth of livable 
communities in these new mobility centers.
    Additionally, the increase in accessibility and mobility in the 
regions around high speed rail will certainly add to the area's 
livability, as more people are able to travel further for cheaper, and 
have increased access to a greater number of destinations and goods.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Hon. John D. Porcari
    Question 1. What is the DOT's current estimate on how much funding 
is required to fully deploy NextGen across the National Airspace?
    Answer. FAA's capital investment for the mid-term system is 
expected to be $9.6 billion through 2015. This cost does not include 
research, the airport and associated airfield improvements, or the 
aircraft equipage that is necessary to realize a fuller set of NextGen 
benefits. NextGen costs beyond FY 2015 are still under development.

    Question 2. What is DOT's current cost estimate for commercial and 
private equipage with NextGen avionics?
    Answer. The FAA is developing cost estimates for commercial and 
private equipage for NextGen. Equipage cost estimates will depend on 
the following types of variables:

  <bullet> which Next Gen technologies are factored into the estimate;

  <bullet> what the current fleet equipage rates are;

  <bullet> whether equipage will require retrofits or forward fits;

  <bullet> when the avionics will become available;

  <bullet> when equipage is mandated by FAA; or

  <bullet> the extent to which both the commercial and GA fleet must be 
        equipped to achieve optimal cost/benefit.

    For ADS-B Out, the FAA estimates that the aviation industry will 
incur total costs ranging from $2.5 billion to $6.2 billion to equip. 
Estimates for other technologies such as Data Communications or ADS-B 
In are still under development.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Hon. John D. Porcari
    Question 1. Last year's budget proposal included a `footnote' 
indicating future revenues from air traffic control user fees. This 
year, the budget makes no mention of user fees. Does this omission mean 
the Administration has now ruled out any future air traffic `user 
fees'?
    Answer. The FY 2011 President's Budget does not include a user fee 
proposal for FAA reauthorization. The Budget assumes a continuation of 
current law and anticipates future reauthorization.

    Question 2. We are working hard to get an FAA Reauthorization bill 
passed this year. The current Senate bill is a 2-year reauthorization 
of the FAA. Does the Administration have any intent on advancing its 
own FAA Reauthorization proposal?
    Answer. Immediate passage of a multi-year reauthorization is a 
priority for the Administration. At this point, the Administration's 
focus is on continuing to work closely with Congress to enact a bill 
during this session.

    Question 3. Last year, the air traffic controller union was awarded 
$750 million by an arbitration board. That $750 million is supposed to 
be paid over the next 3 years. The proposed budget submitted by the 
administration includes $166 million (sic, increase was stated as 
$144M) for that contract in FY2011. In order to pay for that contract, 
the budget indicates FAA is reducing expenditures for a variety of 
activities. Could you provide the Committee with a list of the specific 
expenditure reductions by activity?
    Answer. The final arbitration decision on the NATCA contract 
awarded the controllers $669 million in additional pay over 3 years. In 
FY 2010, the additional cost to the agency is expected to be $74 
million. The FAA will cover the costs by permanently reducing level of 
effort in the areas listed below. In FY 2011, the incremental increase 
will be $144 million which has been requested in the President's 
Budget.
    We have taken a number of steps this year to pay for the $74 
million in additional pay requirements for air traffic controllers as a 
result of the binding arbitration agreement signed last summer with 
NATCA. These include:

  <bullet> Slow controller hiring to match the reduced traffic and 
        workload. There will be no operational impact since the slowed 
        economy and reduced retirements have lowered near term 
        controller requirements. (-$15.0M)

  <bullet> Reduce controller training to reflect reduced hiring and 
        reduced retirements. (-$8.0M)

  <bullet> Cap the Air Traffic Organization's hiring except for 
        critical air traffic control and NextGen positions. (-$10.0M)

  <bullet> Defer facility sustainment, repairs and renovations. 
        (-$17.0M)

  <bullet> Reduce replacement efforts for administrative IT equipment 
        and software. (-$13.6M)

  <bullet> Reduce expenditures in multiple areas including:

    <ctr-circle> Second-level engineering contracts, (-$1.5M)

    <ctr-circle> Reduce Service Center contract support for back office 
            functions, (-$0.3M) and

    <ctr-circle> Reduce administrative travel across the board 
            (conferences, meetings, etc). (-$5.6M)

  <bullet> Reduce Airspace Management/Airspace Lab efforts in several 
        areas including work on new automation tools, aeronautical 
        studies, and digital maps; and delaying the establishment of 
        disaster recovery sites at the William J. Hughes Technical 
        Center and the Aeronautical Center for NAS support systems. 
        (-$3M)

    Question 4. Additionally, what are the U.S. taxpayers receiving in 
return for the $750 million pay raise? We are currently in a recession, 
air traffic is down, and it would seem like a bad time for such a large 
raise. What quantifiable benefits are we receiving as a result of the 
increased wages?
    Answer. We are already seeing benefits as a result of the new 
contract with NATCA. Controller retirements have fallen well short of 
our projections, which has helped us maintain more experienced 
controllers at many of our larger and more complex facilities. 
Grievances filed during the first 5 months of this contract are well 
below the number of grievances filed in the first 5 months of the 2006 
contract, which saves costs in processing grievances and the cost of 
arbitrations. Additionally, NATCA and the controller workforce are 
getting involved with more projects, such as facility realignments and 
NextGen, lending valuable controller expertise to these programs. 
Finally, our relationship with NATCA and our controller workforce is 
improving.

    Question 5. The budget touts an increase of $275 million for 
NextGen. However, only about $35 million of that increase is for actual 
FAA capital accounts. We are very concerned that FAA will continue to 
expand the definition of NextGen in order to take advantage of any 
NextGen specific funding Congress provides. Do you agree that any funds 
delineated for `NextGen' should be prioritized for capital expenditures 
instead of paying for operations? And, will you make sure NextGen funds 
are spent on capital projects, not operations?
    Answer. The FY 2011 budget increases FAA's NextGen portfolio by a 
total of $275 million over FY 2010 (from $867.7 million enacted in FY 
2010 to $1,142.8 million requested in FY 2011). Of this amount, $235 
million is in the Facilities and Equipment (F&E) capital account, $5 
million is in the Research, Engineering and Development (RE&D) account, 
and $35 million is in Operations.
    The $35 million cited in the question is the increase in the total 
F&E account, which incorporates both NextGen and non-NextGen 
investments. The NextGen increase is achieved through offsets to other 
F&E programs either nearing completion. For operations and RE&D, FAA 
has included under the NextGen umbrella only those projects that 
directly contribute to the NextGen mission.

    Question 6. Could you explain how the proposed National 
Infrastructure Innovation and Finance Fund would operate and what types 
of projects would have the highest priority?
    Answer. The National Infrastructure Innovation and Finance Fund (I-
Fund) will be established as a new entity within the Department. The I-
Fund would be headed by a Director, appointed by the President, who 
would oversee the day-to-day operations and report to the Secretary. 
The I-Fund investments would be governed by a policy and investment 
advisory group of Federal officials that would establish and maintain 
the criteria for the evaluation of investment projects and make 
investment recommendations to the Secretary of Transportation. The 
administrative structure of the I-Fund would include offices of policy, 
budget, finance, administration and others as appropriate.
    Projects that would receive the highest priority are those that are 
regionally or nationally significant and would be difficult to fund 
otherwise. These projects would have a demonstrable merit and provide a 
significant economic benefit.

    Question 7. Would projects be less likely to receive funding from 
the proposed innovation fund if the mode receives separate funding, for 
example, separate high-speed rail funding?
    Answer. The mission of the I-Fund will be to seek out and invest in 
infrastructure projects of regional and national significance that 
would be difficult to fund otherwise. The broad eligibility criteria 
for the I-Fund is intended to provide flexibility for the Department to 
fund projects that will meet a variety of transportation or 
transportation-related infrastructure needs. Availability of funding 
from other sources for some portion of a project would not necessarily 
disqualify that project from receiving I-Fund assistance.

    Question 8. Why are the administrative costs of the proposed 
innovation fund so high? The budget proposes 7 percent of the fund's 
proceeds to be set aside for program administration ($70 million), 
project planning and design ($150 million), and benefit-cost analysis 
($50 million)--$270 million total. Shouldn't the majority of these 
costs be borne by applicants seeking funding?
    Answer. The I-Fund will be established as a new entity within the 
Department and all of the administrative costs will be directly paid by 
the I-Fund. The I-Fund will also rely on contractor support when in-
house experts are not available. It is anticipated that the I-Fund 
would charge certain fees to help offset the cost to the Federal 
Government of providing funding assistance. The administrative cost set 
aside for the first year includes additional funds to help establish 
the entity.
    The set aside for project planning and design would be awarded to 
fund required up-front expenses of planning and assessing potential 
opportunities. These costs can often prevent otherwise beneficial 
projects from becoming a reality and this funding provides the I-Fund 
with an opportunity to gather valuable information on a potential 
project prior to making a more significant commitment of resources. By 
offering a source of funds for the up-front costs of new projects, the 
program can help new and innovative infrastructure project proposals 
compete for construction phase funding once the concept is proven.
    The set aside for benefit-cost analysis will enable the I-Fund to 
build a rigorous cross-modal evaluation tool capable of evaluating and 
comparing the complete social return on investment of a diverse array 
of potential projects. In addition, some of these funds will enable the 
I-Fund to assist potential applicants with data and analysis production 
required to complete its analytical work and make confident investment 
recommendations to the Secretary.

    Question 9. Why are 100 new employees needed to administer the 
fund? That seems extraordinarily high.
    Answer. The I-Fund will be a new entity within the Department and 
all of those personnel will directly report to the I-Fund. Duties for 
the proposed 100 FTE will include work for policy, financial, budget, 
legal and risk analysis. The 100 FTE is comparable to other large scale 
infrastructure programs. Further, the I-Fund will forge a revolutionary 
path forward in Federal infrastructure investing that includes multiple 
lines of business including both planning and project funding as well 
as project origination activities that go beyond the typical 
application solicitation approach. This forward-leaning 
entrepreneurship will require additional staff capable of understanding 
transportation infrastructure strategies nationwide.

    Question 10. What types of aviation-related projects would be 
eligible? Would `aircraft equipage' of NextGen technologies be 
eligible? Why or why not?
    Answer. The types of aviation-related projects could include 
airport infrastructure projects currently eligible under Title 49.

    Question 11. The Department has spoken about TxDOT's lack of a plan 
for the development of high-speed rail. What does the State need to do 
to be competitive for high-speed rail grants?
    Answer. The State needs to make high-speed intercity passenger rail 
service a priority in its transportation planning and allocation of 
transportation resources.
    With that as a foundation, the State needs to engage with passenger 
mobility stakeholders within the State to develop a realistic vision 
for high-speed intercity passenger rail service, a plan to implement 
this vision (i.e., service development plan), and associated 
environmental reviews and documentation (i.e., service development 
NEPA).

    Question 12. What realistically can be accomplished with $1 billion 
for high-speed rail? How does the Department plan to distribute the 
money it is requesting for high-speed rail? How can we ensure that 
states don't end up ``holding the bag'' or being forced to pay for 
projects if Federal funding dries up?
    Answer. The FY 2011 request for $1 billion supports the second year 
of the Administration's five-year, $5 billion high-speed rail 
initiative. It is a complementary funding stream to FRA's high-speed 
rail initiative that began with the $8 billion provided in the American 
Recovery and Reinvestment Act.
    Delivering on the vision and realizing the potential benefits of 
high-speed rail requires a long-term commitment at both the Federal and 
State levels. This five-year initiative leverages resources at the 
State and local level, as well as the private sector to fund strategic 
investments that yield tangible benefits to intercity rail 
infrastructure, equipment, performance and intermodal connections over 
the next several years, while building capacity for future corridor 
development.
    FRA recognizes the long-term financial impact this program will 
have on states. As a result, the program guidance that was developed 
for the FY 2010 program, and that will be used as the basis for the FY 
2011 program, requires all project and corridor development applicants 
to: (1) contribute a 20 percent match (in cash or in-kind) and (2) 
certify their ability to meet a number of program conditions including 
the ability to fund future system operations.
    Finally, the proposed FY 2011 program set asides mirror the FY 2010 
program in that additional funds are targeted for high-speed rail 
research and development activities (up to $30 million); corridor 
planning activities (up to $50 million); and agency oversight and 
administration of the program (up to $50 million).

    Question 13. As an independent agency, the Surface Transportation 
Board submitted its own budget request, asking for $31 million for 
Fiscal Year 2011. Why did the Department submit a budget for the STB 
that calls for $5 million less than requested by the agency?
    Answer. The Department's budget request for the Surface 
Transportation Board (STB) reflects the Administration's proposed 
funding level for STB. However, section 703 of the statute (109 STAT. 
934, P.L. 109-88) allows the Surface Transportation Board (STB) to 
submit a request level different from the DOT request level.

    Question 14. Why did the Administration zero out the Rail Line 
Relocation Program? This program has a lot of potential for Texas and 
other states. I understand rail relocation projects would be eligible 
for funding under the innovation financing fund, but those projects 
would have to compete with all sorts of other rail, highway, port, and 
intermodal projects.
    Answer. The Administration's vision for contributing to the 
Nation's transportation railroad infrastructure requirements places 
emphasis on funding larger, more flexible Federal assistance programs 
(i.e., National Infrastructure Innovation and Finance Fund (I-Fund) and 
TIGER grants), rather than funding multiple smaller programs, with 
individual funding streams, which encourage program funding decisions 
based upon the availability of Federal resources versus greatest need 
or public benefit.
    State investments needed for rail line relocation and improvements 
are projects and activities that could benefit from funding 
administered under programs such as I-Fund and TIGER.

    Question 15. I have mentioned before that I believe states should 
be allowed to enact distracted driving laws that meet its specific 
needs. An approach that dictates too specifically to states how to 
regulate in this area is the wrong method, in my opinion. What is DOT's 
vision for this new distracted driving grant program and what criteria 
would a state need to meet in order to be eligible for a grant?
    Answer. Distracted driving is a significant safety problem. NHTSA 
research indicates that approximately 6,000 people were killed in 
crashes in 2008 in which distracted driving was involved. At any given 
daylight time in 2008, estimates indicate that 800,000 drivers were 
using a cell phone while driving. Younger drivers appear to be more 
likely to use electronic communication devices while driving.
    States are becoming increasingly active in addressing this threat: 
21 states have laws that ban texting while driving, and 6 states have 
laws that ban hand-held cell phone use by all drivers. The Department 
will take into consideration the scope of these existing distracted 
driving laws in determining the criteria for any distraction grants 
funded by the Congress.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. John D. Porcari
    Question 1. Is it correct that a number of states have indicated 
they will not enforce the Department's ban on texting while driving for 
commercial drivers until a formal rulemaking is completed? How do you 
plan to proceed?
    Answer. The Department's Federal Motor Carrier Safety 
Administration (FMCSA) recognizes that states are not required to adopt 
and enforce the Agency's regulatory guidance published in the Federal 
Register on January 27, 2010 (75 FR 4305). However, states are required 
to adopt and enforce compatible safety regulations as a condition of 
receiving Motor Carrier Safety Assistance Program (MCSAP) grants from 
FMCSA. States must adopt and enforce compatible rules within 3 years of 
the effective date of a new Federal Motor Carrier Safety Regulation. 
See 49 CFR  350.335.
    The purpose of the Department's regulatory guidance was to heighten 
industry awareness of the safety risks associated with texting while 
driving, and to emphasize that one of FMCSA's existing regulations may 
be cited by enforcement officials for taking action against truck and 
bus drivers who engage in this unsafe practice. Also, the guidance 
explains that a civil penalty of up to $2,750 may be assessed against 
these drivers by FMCSA. The Department leaves to the discretion of the 
individual states the decision about what actions may be taken against 
texting truck and bus drivers based on their respective State laws and 
regulations, pending the completion of the Federal rulemaking on 
texting.
    The Department published a Notice of Proposed Rulemaking (NPRM) to 
explicitly prohibit texting by truck and bus drivers on April 1 (75 FR 
16391). The rulemaking would provide driver disqualification penalties 
for interstate truck and bus drivers, and amend the Department's 
commercial driver's license (CDL) rules to provide a disqualification 
provision for CDL holders convicted of violating State traffic laws 
concerning texting. The CDL provision would apply to commercial motor 
vehicle drivers employed by truck and bus companies or Federal, State 
and local government agencies, including school bus drivers. The public 
comment period for the NPRM ends on May 3, 2010. The Department will 
then consider all the public comments received in preparing a final 
rule later this year. States would then have 3 years to adopt and 
enforce compatible rules concerning texting.

    Question 2. I am encouraged by FMCSA's development of the 
Comprehensive Safety Analysis 2010 program, since it will ensure that 
all motor carriers are rated for safety purposes on a regular basis, 
and that the rating is based on all of the safety data collected by 
Federal and state enforcement officers. But there are concerns about 
the accuracy of the data on which ratings will be based, especially 
given the problems with the current SafeStat system. What is the 
Department doing to address this concern?
    Answer. The states are required to provide standard, basic 
information about large truck and bus crashes to FMCSA within 90 days 
of the crash event, and the results of roadside inspections within 21 
days of inspection. The completeness, timeliness and accuracy of crash 
data--and to a lesser extent roadside inspection data--vary from State-
to-State.
    The FMCSA, in conjunction with our State partners, has made 
significant improvements in the reported crash and inspection data used 
to assess motor carrier performance. FMCSA's data quality program 
includes a multitude of activities aimed at improving the completeness, 
accuracy, and timeliness of motor carrier crash and inspection data. 
These activities include: (1) State-by-State monitoring of data quality 
on a monthly basis (as measured by the State Safety Data Quality map); 
(2) on-site and off-site assessments of State crash data, and data 
collection processes and procedures; (3) a process that allows for data 
challenges by motor carriers and commercial motor vehicle drivers via 
our ``DataQ's'' website; and (4) individual State training courses to 
assist State and local officers in properly collecting and reporting 
motor carrier crashes and inspections. Additionally, FMCSA currently 
has a grant program known as the Safety Data Improvement Program, or 
SaDIP, that provides states funding to improve data quality. Through 
these activities, there has been significant improvement in the overall 
quality and quantity of state reported data over the last several years 
as reflected below:


------------------------------------------------------------------------
                                                                Jul 08-
               Data Quality                   2007     2008     Jun 09
------------------------------------------------------------------------
Accuracy
------------------------------------------------------------------------
Percentage of crashes reported to FMCSA        94%      96%         96%
 matched to a carrier
Percentage of inspections reported to          98%      99%         99%
 FMCSA matched to a carrier
------------------------------------------------------------------------
Timeliness
------------------------------------------------------------------------
Percentage of crashes reported within 90       86%      88%         89%
 days
Percentage of roadside inspections             92%      94%         94%
 reported within 21 days
------------------------------------------------------------------------
Completeness
------------------------------------------------------------------------
Percentage of fatal crashes reported to       100%     100%        100%
 FMCSA
Percentage of nonfatal crashes reported to     86%      86%         83%
 FMCSA
Percentage of all crash reports with           69%      84%         92%
 complete driver/vehicle data
------------------------------------------------------------------------
Sources: MCMIS (State-reported data); NHTSA (fatal crash data).
For details, see www.ai.fmcsa.dot.gov/DataQuality.

    FMCSA fully recognizes the importance of this data as the 
foundation for Comprehensive Safety Analysis (CSA) 2010. Working 
collaboratively with the Commercial Vehicle Safety Alliance (CVSA), 
FMCSA is undertaking several additional data enhancements and related 
efforts.
    FMCSA commenced these efforts at the CVSA annual meeting in October 
2008. At that meeting CVSA founded the Data Uniformity Ad-hoc committee 
to develop strategies to improve data uniformity and consistency. The 
Ad-hoc committee has developed four core components of roadside data 
uniformity. The same four components then became the foundation for the 
collective efforts of the Committee. Those four components are:

        1. Consistent documentation of roadside inspection and 
        violation data.

        2. Standardized processes for responding to data challenges and 
        increased awareness of high level goals of the inspection 
        program.

        3. Uniform inspection selection processes.

        4. Raising awareness that every inspection counts.

    FMCSA is actively addressing each of the above components and has 
made significant progress in meeting these objectives. FMCSA's 
accomplishments thus far include:

  <bullet> Consistent documentation of roadside inspection and 
        violation data--Through a FMCSA-funded high-priority grant, in 
        the spring of 2009, CVSA staff and State partners began work on 
        guidance that promotes the consistent documentation of roadside 
        inspection and violation data.

  <bullet> Standardized processes for responding to data challenges--
        This initiative will provide procedural guidance on the 
        management of the roadside inspection and crash data challenge 
        process through our DataQ's management system. FMCSA and 
        several state partner subject matter experts formed a group in 
        the spring of 2009 to develop standardized procedures for the 
        data challenge process.

  <bullet> Increased awareness of high level goals of the inspection 
        program--This component of the roadside data uniformity 
        initiative focused on the increased importance of the roadside 
        violation data and an understanding of how the data will be 
        used. The goal is to ensure that the processes that are used in 
        the collection of the roadside data are validated and promote 
        the integrity of the programs that employ the data.

  <bullet> Uniform inspection selection processes--CVSA is considering 
        a proposed change to its operational policies that will 
        encourage member jurisdictions to review and formalize their 
        current policies that govern when and how commercial motor 
        vehicles should be selected for an inspection. The goal is to 
        raise awareness that a valid and consistent vehicle and driver 
        inspection selection process operated within the scope of a 
        jurisdiction's rules and policies is the critical foundation 
        upon which the integrity of our programs rest.

                                  <all>

</pre></body></html>
